<html>
<title> - OVERSIGHT HEARING ON THE 2016 CALIFORNIA WATER SUPPLY OUTLOOK DURING THE EL NINO AND THREE YEARS OF RESTRICTED WATER DELIVERIES</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


THE 2016 CALIFORNIA WATER SUPPLY OUTLOOK DURING THE EL NINO AND THREE 
                 YEARS OF RESTRICTED WATER DELIVERIES

=======================================================================

                             OVERSIGHT HEARING

                               BEFORE THE

                SUBCOMMITTEE ON WATER, POWER AND OCEANS

                                 OF THE

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                      Wednesday, February 24, 2016

                               __________

                           Serial No. 114-32

                               __________

       Printed for the use of the Committee on Natural Resources
       
       
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]       


         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov
          
          
                                __________
                                
                               
                               
                      U.S. GOVERNMENT PUBLISHING OFFICE
98-878 PDF                   WASHINGTON : 2016                      
________________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d4b3a4bb94b7a1a7a0bcb1b8a4fab7bbb9fa">[email&#160;protected]</a>  
                     
                     
                     
                     
                     
                     
                     
                     
                     
                     
                     
                     
                     COMMITTEE ON NATURAL RESOURCES

                        ROB BISHOP, UT, Chairman
            RAUL M. GRIJALVA, AZ, Ranking Democratic Member

Don Young, AK                        Grace F. Napolitano, CA
Louie Gohmert, TX                    Madeleine Z. Bordallo, GU
Doug Lamborn, CO                     Jim Costa, CA
Robert J. Wittman, VA                Gregorio Kilili Camacho Sablan, 
John Fleming, LA                         CNMI
Tom McClintock, CA                   Niki Tsongas, MA
Glenn Thompson, PA                   Pedro R. Pierluisi, PR
Cynthia M. Lummis, WY                Jared Huffman, CA
Dan Benishek, MI                     Raul Ruiz, CA
Jeff Duncan, SC                      Alan S. Lowenthal, CA
Paul A. Gosar, AZ                    Matt Cartwright, PA
Raul R. Labrador, ID                 Donald S. Beyer, Jr., VA
Doug LaMalfa, CA                     Norma J. Torres, CA
Jeff Denham, CA                      Debbie Dingell, MI
Paul Cook, CA                        Ruben Gallego, AZ
Bruce Westerman, AR                  Lois Capps, CA
Garret Graves, LA                    Jared Polis, CO
Dan Newhouse, WA                     Wm. Lacy Clay, MO
Ryan K. Zinke, MT
Jody B. Hice, GA
Aumua Amata Coleman Radewagen, AS
Thomas MacArthur, NJ
Alexander X. Mooney, WV
Cresent Hardy, NV
Darin LaHood, IL

                       Jason Knox, Chief of Staff
                      Lisa Pittman, Chief Counsel
                David Watkins, Democratic Staff Director
                  Sarah Lim, Democratic Chief Counsel
                                 
                                 ------                                

                SUBCOMMITTEE ON WATER, POWER AND OCEANS

                       JOHN FLEMING, LA, Chairman
              JARED HUFFMAN, CA, Ranking Democratic Member

Don Young, AK                        Grace F. Napolitano, CA
Robert J. Wittman, VA                Jim Costa, CA
Tom McClintock, CA                   Ruben Gallego, AZ
Cynthia M. Lummis, WY                Madeleine Z. Bordallo, GU
Jeff Duncan, SC                      Gregorio Kilili Camacho Sablan, 
Paul A. Gosar, AZ                        CNMI
Doug LaMalfa, CA                     Raul Ruiz, CA
Jeff Denham, CA                      Alan S. Lowenthal, CA
Garret Graves, LA                    Norma J. Torres, CA
Dan Newhouse, WA                     Debbie Dingell, MI
Thomas MacArthur, NJ                 Raul M. Grijalva, AZ, ex officio
Rob Bishop, UT, ex officio

                              ----------                                
                                
                                
                               CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Wednesday, February 24, 2016.....................     1

Statement of Members:
    Costa, Hon. Jim, a Representative in Congress from the State 
      of California..............................................    10
        Prepared statement of....................................    11
    Fleming, Hon. John, a Representative in Congress from the 
      State of Louisiana.........................................     1
        Prepared statement of....................................     2
    Gosar, Hon. Paul A., a Representative in Congress from the 
      State of Arizona...........................................     8
        Prepared statement of....................................     9
    Huffman, Hon. Jared, a Representative in Congress from the 
      State of California........................................     4
        Prepared statement of....................................     6

Statement of Witnesses:
    Barbre, Brett, Director, Municipal Water District of Orange 
      County, Yorba Linda, California............................    13
        Prepared statement of....................................    15
    Bettner, Thaddeus, General Manager, Glenn-Colusa Irrigation 
      District, Willows, California..............................    17
        Prepared statement of....................................    19
    Birmingham, Thomas, General Manager/General Counsel, 
      Westlands Water District, Fresno, California...............    40
        Prepared statement of....................................    42
    Murillo, David, Regional Director, Mid-Pacific Region, Bureau 
      of Reclamation, U.S. Department of the Interior, 
      Washington, DC, accompanied by Ren Lohoefener, Director of 
      the Pacific Southwest Region of the U.S. Fish and Wildlife 
      Service in Sacramento, California..........................    36
        Prepared statement of....................................    38
    Pool, Richard, President and Owner, Pro-Troll Fishing 
      Products, Concord, California..............................    31
        Prepared statement of....................................    32

Additional Materials Submitted for the Record:

    LaGrande, Ken, Rice Farmer from Northern California, prepared 
      statement of...............................................    56
                                     


 
 OVERSIGHT HEARING ON THE 2016 CALIFORNIA WATER SUPPLY OUTLOOK DURING 
       THE EL NINO AND THREE YEARS OF RESTRICTED WATER DELIVERIES

                              ----------                              


                      Wednesday, February 24, 2016

                     U.S. House of Representatives

                Subcommittee on Water, Power and Oceans

                     Committee on Natural Resources

                             Washington, DC

                              ----------                              

    The subcommittee met, pursuant to notice, at 10:10 a.m., in 
room 1324, Longworth House Office Building, Hon. John Fleming 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Fleming, Gosar, McClintock, 
Duncan, LaMalfa, Denham, Newhouse; Huffman, Costa, Ruiz, 
Lowenthal, and Torres.
    Dr. Fleming. The Subcommittee on Water, Power and Oceans 
will come to order. The Water, Power and Oceans Subcommittee 
meets today to hear testimony on an oversight hearing entitled, 
``The 2016 California Water Supply Outlook During the El Nino 
and Three Years of Restricted Water Deliveries.'' We will begin 
with opening statements, starting with myself.

    STATEMENT OF THE HON. JOHN FLEMING, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF LOUISIANA

    Dr. Fleming. Today, the Subcommittee on Water, Power and 
Oceans meets to assess California's water supplies in light of 
ongoing drought and the related water cutbacks while the state 
has been partially drenched with powerful El Nino storms. 
Today's hearing not only impacts California, but also taxpayers 
and food consumers nationwide.

    Four years of drought have now gone by, and Californians 
are finally getting some rain and snow. But, will there be any 
difference to those suffering in the San Joaquin Valley and 
elsewhere? Will a 3-inch fish continue to be more important 
than people? So far that answer is yes.

    [Chart]

    Dr. Fleming. Unfortunately, as this chart says, twice the 
amount of water is flowing out into the ocean compared to last 
year, but even less water is being sent to farms, due in part 
to Federal endangered species regulations. As you can see by 
the chart, in blue you have the Delta outflow, and then in red, 
exports. So, as you can see, the exports remain pretty much 
even, while the outflow is increasing. So that is not a good 
ratio.

    To illustrate how sad this situation has become, here is a 
picture of imported carrots from China being handed out to a 
food line in the San Joaquin Valley, which was one of the most 
agriculturally productive areas of the world. In more 
prosperous times, the people in these food lines helped provide 
food to all of us.

    [Chart]

    Dr. Fleming. As this chart indicates, California produces 
over two-thirds of the fruit and nuts in the United States. I 
know that is hard to read, but you can see the percentages are 
very high in virtually every one of those categories.

    And yes, it used to produce 83 percent of domestic carrots. 
The area went from a salad bowl to a dust bowl. This has 
implications for all of us who shop at grocery stores 
throughout the Nation. And we, as a Nation, pay for social 
services for the people who just want jobs and water, not 
handouts.

    In fact, three of the five most impoverished counties in 
the Nation are located in the Central Valley of California. The 
town of Mendota is experiencing 34 percent unemployment, and 
nearly half of its population lives below the poverty line, as 
a result of water cutbacks. By contrast, of course, the 
Washington, DC area has one of the highest-per-capita incomes, 
if not the most.

    Most would like to think there is light at the end of this 
tunnel. But, according to water experts, 500,000 acre-feet of 
water, or 162 billion gallons, have already been diverted from 
Southern California during this wet year in the name of the 
Delta smelt.

    We will hear today of a very real scenario that these 
communities could face another year of zero water, even in the 
face of above-normal snowpack. We have the power to right these 
wrongs. Sure, Mother Nature can play a role in reversing this 
situation, but let's face it: loss of 162 billion gallons of 
water in 2 months is a man-made problem deserving of a man-made 
solution.

    In the same way that we heard 2 weeks ago that it was 
within Congress' power to reduce predation on endangered fish, 
we have the same power to ensure that farming communities do 
not become an endangered species as well.

    Today is about marching toward administrative and 
legislative solutions that help California and the Nation. I 
look forward to today's hearing, and welcome our witnesses.

    [The prepared statement of Dr. Fleming follows:]
Prepared Statement of the Hon. John Fleming, Chairman, Subcommittee on 
                        Water, Power and Oceans

    Today, the Subcommittee on Water, Power and Oceans meets to assess 
California's water supplies in light of ongoing drought and the related 
water cutbacks while the state has been partially drenched with 
powerful El Nino storms. Today's hearing not only impacts California 
but also taxpayers and food consumers nationwide.

    Four years of drought have now gone by and Californians are finally 
getting some rain and snow. But, will there be any difference to those 
suffering in the San Joaquin Valley and elsewhere? Will a 3-inch fish 
continue to be more important than people?
    So far, that answer is yes. Unfortunately, as the following chart 
says, twice the amount of water is flowing out into the ocean compared 
to last year but even less water is being sent to farms due, in part, 
to Federal endangered species regulations.

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 

    To illustrate how sad this situation has become, here is a 
picture of imported carrots from China being handed out to a food line 
in the San Joaquin Valley, which was one of the most agriculturally 
productive areas of the world.

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 

	In more prosperous times, the people in those food lines helped 
provide food to all of us. As the following chart indicates, California 
produces over two-thirds of the fruit and nuts in the United States. 
And yes, it used to produce 83 percent of domestic carrots. The area 
went from a salad bowl to a dust bowl. This has implications for all of 
us who shop at grocery stores throughout the Nation.

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 

    	And, we as a Nation pay for social services for the people who 
just want jobs and water, not handouts. In fact, three of the five most 
impoverished counties in the Nation are located in the Central Valley 
of California. The town of Mendota is experiencing 34 percent 
unemployment and nearly half of its population lives below the poverty 
line as a result of water cutbacks.
    Most would like to think there's light at the end of this tunnel. 
But, according to water experts, 500,000 acre-feet of water--or 162 
billion gallons--have already been diverted from Southern California 
during this wet year in the name of the Delta smelt. We will hear today 
of a very real scenario that these communities could face another year 
of zero water even in the face of above-normal snowpack.
    We have the power to right these wrongs. Sure, Mother Nature can 
play a role in reversing this situation, but let's face it: the loss of 
162 billion gallons of water in 2 months is a man-made problem 
deserving of a man-made solution. In the same way that we heard 2 weeks 
ago that it was within Congress's power to reduce predation on 
endangered fish, we have the same power to ensure that farming 
communities do not become an endangered species.
    Today is about marching toward administrative and legislative 
solutions that help California and the Nation. I look forward to 
today's hearing and welcome our witnesses.

                                 ______
                                 

    Dr. Fleming. At this time, I yield to the Ranking Member, 
Mr. Huffman.

   STATEMENT OF THE HON. JARED HUFFMAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Huffman. Good morning and thanks, Mr. Chairman. 
Welcome, everyone. If there was any doubt, I think it is safe 
to say we are now officially in election season. Like election 
years past, today we are having a partisan one-sided hearing 
aimed at bashing the Administration and rehashing the same 
tired old narratives, blaming the drought on environmental 
protection, instead of focusing on real drought solutions.
    We are here, instead of that, to wage yet another 
ideological battle against the Endangered Species Act, against 
the 3-inch lowly Delta smelt, and to tell people that there is 
a man-made drought caused by environmental protections, which 
is simply bunk.
    Never mind that experts say we are likely experiencing the 
worst hydrologic drought in 1,200 years, or the fact that 
California's 2014 and 2015 water years were the warmest on 
record. Let's also forget that ESA protections accounted for a 
mere 2 percent of the Central Valley Project's water supply 
reduction in 2014, and that the State Water Board estimates 
that in 2015 only 2 percent of all runoff in the Bay-Delta 
watershed flowed to San Francisco Bay solely for environmental 
protection. Only 2 percent, and yet still that is some kind of 
a political outrage here in Washington today.
    No, this hearing is not about looking at the actual facts, 
it is about trying to score political points pursuing an agenda 
that my Republican colleagues have pursued for many years now, 
to weaken the Endangered Species Act, to gut fisheries 
protections that support thousands of jobs in my district and 
across the Pacific Coast, and to redirect water from one region 
of the state to another.
    Mr. Chairman, I hope some day we can hold hearings to 
examine real drought solutions that Congress could be pursuing. 
I have introduced a bill, H.R. 2983, that includes many of 
these solutions, including the promotion of innovative de-
salination technologies, water recycling and reuse, groundwater 
recharge, storm water capture, and reduced losses from 
evaporation. All of these are tools that we could be able to 
work on in advance on a bipartisan basis.
    My bill also promotes water conservation through improved 
reservoir operations. And if we want to find something to be 
outraged about, let's consider that right now, water managers 
at Folsom Lake, one of California's major reservoirs, are 
releasing tremendous amounts of water, not for the Delta smelt, 
not for the Endangered Species Act, but because an outdated 
decades-old flood control manual tells them they need to do so 
because of the date on the calendar. This is based on backward-
looking hydrology, and their refusal to look to the sky, where, 
since the 1950s, we have invented things called weather 
satellites that can tell us that storms are actually coming. We 
could be saving an awful lot of water. It is not controversial, 
it is not expensive, and that saving could start right away if 
we would focus on the right issues. This is the kind of 
solution water managers want.
    Mr. Chairman, this is just one common-sense proposal, one 
of many in the bill that I and over 30 of my colleagues who are 
co-sponsors have introduced. We could be talking about those 
things, but instead, we are rehashing this tired argument, 
discredited claims about the Endangered Species Act.
    Additionally, despite repeated requests from Democratic 
members of this committee, the Majority has refused to hold a 
single hearing examining how best to prepare for future 
droughts, which we know are going to be more frequent and 
severe across the West if we continue to ignore the dangers of 
climate change.
    We have also requested a hearing to look at how other arid 
regions of the world have managed their droughts, places like 
Israel and Australia, who have developed innovative new 
technologies and drought management practices. We could be 
learning from them. And things like that ought to be on the 
agenda for this committee.
    Unfortunately, it seems that all my colleagues across the 
aisle want to talk about is how to roll back fishery 
protections that support thousands of fishing industry jobs 
from California and Oregon all the way to Washington State and 
Alaska.
    Mr. Chairman, California's anadromous fisheries are hanging 
on by a thread. Just one example, Federal officials recently 
announced there was a 97 percent mortality rate for juvenile 
Sacramento winter-run salmon last year. The year before, it was 
a 95 percent mortality rate. If we further weaken fisheries 
protections, we need to think about what comes next.
    A few years ago, we saw a complete closure of the West 
Coast salmon fisheries, for 2 years in a row. That meant $158 
million in Federal disaster aid from Congress.
    We also need to think about the fact that we have already--
[microphone issues]--all right, I am just going to project, Mr. 
Chairman. We have already redirected millions of acre-feet of 
water away from environmental protections to water exports over 
the last couple years of this drought, and the scientists are 
starting to tell us that there is a real environmental cost to 
that. We cannot continue short-cutting this vital threat of 
environmental protection that we have for our salmon and other 
fisheries.
    So, Mr. Chairman, I welcome this discussion, but I think in 
many respects we are having the wrong discussion. I look 
forward to the time when we can come together as a committee 
and talk about the many, many bipartisan solutions for 
California and the arid West that we could and should be 
pursuing together.
    [The prepared statement of Mr. Huffman follows:]
     Prepared Statement of the Hon. Jared Huffman, Ranking Member, 
                Subcommittee on Water, Power and Oceans
    Mr. Chairman, if there was ever any doubt, I think it's safe to say 
we're now officially in election season. Like election years past, 
today we have a partisan, one-sided hearing aimed at bashing the 
Administration and rehashing the same tired arguments blaming the 
drought on environmental protections. Instead of focusing on real 
drought solutions, we're here today to wage yet another ideological 
battle against the Endangered Species Act and to tell people there is a 
``man-made'' drought caused by environmental protections.
    Never mind that experts say we're likely experiencing the worst 
hydrological drought in 1,200 years, or the fact that California's 2014 
and 2015 water years were the warmest on record. Let's also forget that 
ESA protections accounted for a mere 2 percent of the CVP's water 
supply reduction in 2014 and that the State Water Resources Control 
Board estimates that in 2015, only 2 percent of all the runoff in the 
Bay-Delta watershed flowed to San Francisco Bay solely for 
environmental protection.
    No, today's hearing is not about examining these and other facts. 
It's simply about trying to score political points and pursuing an 
agenda my Republicans colleagues have pursued for many years now to 
weaken the Endangered Species Act, head and gut fishery protections 
that support thousands of jobs in my district and across the Pacific 
Coast, and redirect water from one region of the state to another.
    Mr. Chairman, I hope that someday we can hold hearings examining 
the many real drought solutions Congress could be pursuing. I have 
introduced a drought response bill, H.R. 2983, which includes many of 
these solutions, including the promotion of innovative de-salination 
technologies, water recycling and reuse, groundwater recharge, storm 
water capture, and reduced supply losses to evaporation.
    My bill also promotes water conservation through improved reservoir 
operations. Right now, water managers at Folsom Lake--one of 
California's major reservoirs--are releasing tremendous amounts of 
water because of outdated, decades-old flood control regulations that 
don't take into account modern weather forecasting. That's right, these 
releases have nothing to do with environmental laws. My drought 
legislation would update these regulations, allowing water managers to 
use forecast-based decisionmaking for flood control releases, so we can 
save precious water supplies during drought.
    Mr. Chairman, this is just one common sense proposal--one of many 
in my bill. Yet the committee has so far refused to even have a hearing 
on it. Instead we're here today rehashing the same discredited claims 
about the Endangered Species Act. Time and again we hear testimony 
about the threatened and ecologically important Delta smelt, as if the 
Majority has forgotten that big fish eat little fish. Additionally, 
despite repeated requests from Democratic members of this committee, 
the Majority has also refused to hold a single hearing examining how 
best to prepare for future droughts, which we know will be more 
frequent and severe across the American West if we continue to ignore 
the dangers of climate change. We've also requested a hearing to look 
at how other arid regions of the world have managed droughts like the 
one we're facing. International allies like Israel and Australia have 
developed innovative new technologies and drought management practices 
that we should examine and learn from.
    Unfortunately, all that my Republican colleagues seem to want to 
talk about is how to roll back fishery protections that support 
thousands of fishing industry jobs from California and Oregon all the 
way to Washington State and Alaska. Mr. Chairman, many of California's 
anadromous fisheries are hanging on by a thread. Just one example--
Federal officials recently announced that there was a 97 percent 
mortality rate for juvenile Sacramento winter-run salmon in 2015. The 
year before, we had a 95 percent mortality rate.
    We simply cannot weaken fishery protections any more. We know what 
will happen if we do. The closure of the West Coast salmon fishery in 
2008 and 2009 is a recent illustration. The West Coast salmon closure 
caused significant job losses across the West Coast and required $158 
million in fishery disaster aid from Congress. We've already redirected 
millions of acre-feet away from the environment to agricultural and 
municipal water users during the drought, according to the State Water 
Resources Control Board, and any further weakening of existing fishery 
protections could put many of California's fisheries on the path to 
extinction.
    Beyond the lost fishery jobs, Californians simply do not support 
sacrificing California's environment primarily for the benefit of a 
small number of agricultural water users. Recent statewide polling 
shows that Californians overwhelmingly oppose weakening the state's 
environmental protections during the drought. What Californians do 
support in overwhelming numbers is boosting our water supplies though 
water recycling and reuse, storm water capture, and improving water use 
efficiency.
    Local water districts are crying out for Congress to do something 
to prevent the hundreds of billions of gallons of water loss each year 
simply because of aging and inefficient infrastructure. They're asking 
for Congress' help in capturing the hundreds of thousands of acre-feet 
of wastewater that could be reused for agriculture, industry, even 
drinking water.
    These shouldn't be controversial ideas. President George W. Bush's 
Reclamation Commissioner described the water we could tap from 
recycling and reuse as the next great river of the American West. Mr. 
Chairman, when we're done with the political games, I hope to work 
across the aisle to solve California's water problems through a 
thoughtful, science-based process instead of debating the same old 
proposals that create no new water and pit regions of the state against 
each other.

    With that I yield back.

                                 ______
                                 

    Dr. Fleming. I thank the Ranking Member. As you can see, 
Washington really is running out of money, because we don't 
even have enough microphones today to serve everybody.
    [Laughter.]
    Dr. Fleming. The Chair now recognizes Dr. Gosar, Vice Chair 
of the Subcommittee.
    Mr. Denham. Mr. Chairman, my microphone works just fine. 
While I disagree completely with Mr. Huffman's statement, I 
would be more than happy to have him close to me over here, so 
that I can straighten out some of his misconceptions. There are 
great microphones on this side.
    Dr. Fleming. Mr. Denham, that is duly noted by the Chair.
    Moving along, Dr. Gosar? Not working? Here we go.

   STATEMENT OF THE HON. PAUL A. GOSAR, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF ARIZONA

    Dr. Gosar. Thank you, Mr. Chairman, and good morning, 
everyone. We have an expression in the West that whiskey is for 
drinking and water is for fighting over. And, given that the 
hearing today is the first major hearing this year on 
California water, and that California and Arizona have a long 
history of fighting over water that dates back to at least the 
1920s, I brought some whiskey. And before we get to fighting, I 
would like to propose a toast.
    [Laughter.]
    Dr. Gosar. May God bless this hearing. May we make progress 
here today, so that Congress can finally provide some form of 
relief for drought conditions and from policies that are 
crippling western communities.
    And finally, may the extreme environmental groups and 
others that are holding back common-sense solutions and 
comprehensive West-wide drought relief legislation that passed 
the House last July, finally put the interests of small 
businesses, farmers, and American families ahead of the 
interests of a 3-inch fish. Let the fighting begin. Cheers.
    Now, today's hearing is about bringing sanity back to our 
Federal policies that have put thousands out of work, and 
fostering accountability to the Endangered Species Act and the 
bureaucracy charged with implementing it.
    The Bureau of Reclamation's multi-purpose water projects 
made the West what it is today. Generations of our prior 
leaders focused on the need to capture water and deliver it to 
cities and fields. These were nonpartisan endeavors, as 
evidenced by the video that we are going to see with President 
John F. Kennedy dedicating the San Luis Dam in California.

    [Video shown.]

    Dr. Gosar. While the Central Arizona Project came after 
President Kennedy, it continues to bring prosperity to Arizona 
cities, tribal communities, and ranches almost 50 years from 
its inception.
    The Glen Canyon Dam and other projects affiliated with the 
Colorado River Storage Project provided the backbone of a 
regional economy that produced year-round water and emissions-
free hydropower.
    Lake Powell, the reservoir behind Glen Canyon, allowed for 
millions of dollars worth of recreational boating annually, and 
even provided the scenery for the astronaut crash landing in 
the 1968 science fiction classic, ``The Planet of the Apes.'' 
For years, those bent on destroying the Glen Canyon icon tried 
the frontal assault, by trying to get it torn down.
    The so-called environmental community has gotten much more 
creative by actively litigating against dams and the Federal 
agencies that operate them, with the goal of making them 
effectively useless. This is happening with the very dam that 
we just heard from in John F. Kennedy's dedication. The 
litigation tool in this case has been the Endangered Species 
Act and a little 3-inch fish called the Delta smelt is the 
subject today.
    Biological opinions challenged by the environmental 
litigation industry have been made even worse by court actions 
and Federal agencies terrified of further litigation. These 
Federal plans have created a situation where communities who 
thought they were going to get more water in an El Nino year 
are now faced with potentially less water than last season's 
dry year. Meanwhile, Federal scientists have already killed at 
least 120 Delta smelt, more than the equivalent of 12 impacted 
by the Delta pumps this year alone, or 10 times more, and 
double the amount with the water being released to the ocean 
compared to last year.
    And that is why this House passed comprehensive West-wide 
drought relief legislation last year. It helps California, but 
it also helps the entire West by ending the paralysis-by-
analysis through regulatory streamlining to build more water 
storage, protecting state water rights and allowing water users 
to pre-pay what they owe to the Federal Government.
    This effort was 4 years in the making, and we now have a 
chance to get it and other policies over the finish line, so 
that we can start returning to a policy of abundance. This 
hearing is part of that long-term goal, but it also serves as 
an immediate step to help those most in need in California. I 
welcome our panel of witnesses, and look forward to today's 
hearing.
    With that, I yield back, Mr. Chairman.
    [The prepared statement of Dr. Gosar follows:]
   Prepared Statement of the Hon. Paul A. Gosar, a Representative in 
                   Congress from the State of Arizona
    Today's hearing is about bringing sanity back to our Federal 
policies that have put thousands out of work and fostering 
accountability to the Endangered Species Act and the bureaucracy 
charged with implementing it.
    The Bureau of Reclamation's multi-purpose water projects made the 
West what it is today. Generations of our prior leaders focused on the 
need to capture water and deliver it to cities and fields. These were 
non-partisan endeavors--as evidenced by this video of President John F. 
Kennedy dedicating San Luis Dam in California.
    While the Central Arizona Project came after President Kennedy, it 
continues to bring prosperity to Arizona's cities, tribal communities 
and ranches almost 50 years from its inception. The Glen Canyon Dam and 
other projects affiliated with the Colorado River Storage Project 
provided the backbone of a regional economy that produced year-round 
water and emissions-free hydropower. Lake Powell, the reservoir behind 
Glen Canyon allows for millions of dollars worth of recreational 
boating annually and even provided the scenery for the astronaut crash 
landing in the 1968 science fiction classic, the Planet of the Apes.
    For years, those bent on destroying the Glen Canyon icon tried the 
frontal assault by trying to get it torn down. The so-called 
environmental community has gotten much more creative by actively 
litigating against dams and the Federal agencies that operate them with 
the goal of making them effectively useless. This is happening with the 
very dam that we just heard John F. Kennedy dedicate.
    The litigation tool in this case has been the Endangered Species 
Act and the little 3-inch fish called the Delta smelt. Biological 
opinions challenged by the environmental litigation industry were made 
even worse by court actions and Federal agencies terrified of further 
litigation. These Federal plans have created a situation where 
communities who thought they were going to get more water in an El Nino 
year are now faced with potentially less water than last season's dry 
year. Meanwhile, Federal scientists have already killed at least 120 
Delta smelt, more than the equivalent of 12 impacted by the Delta pumps 
this year alone--or 10 times more--and double the amount of water is 
being released to the ocean compared to last year. This begs the 
question of who's being accountable.
    If it could happen in California, it could certainly happen in 
Arizona and elsewhere. Our Nation's forefathers had the vision and 
leadership to construct water and power projects that brought promise 
and hope to a desert wasteland. We are now watching those projects and 
the communities that rely on them being killed by a thousand cuts. 
Rationing is now standard practice almost everywhere and the wasteland 
is slowly returning. That needs to change.
    And that's why this House passed comprehensive west-wide drought 
relief legislation last year. It helps California, but it also helps 
the entire West by ending paralysis-by-analysis through regulatory 
streamlining to build more water storage, protecting state water rights 
and allowing water users to pre-pay what they owe to the Federal 
Government.
    This effort was 4 years in the making and now we have a chance to 
get it and other policies over the finish line so that we can start 
returning to a policy of abundance. This hearing is a part of that 
long-term goal but it also serves as an immediate step to help those 
most in need in California. I welcome our panel of witnesses today and 
look forward to today's hearing.

                                 ______
                                 

    Dr. Fleming. OK, the gentleman yields back.
    The Chair now recognizes Mr. Costa, our Democratic Vice 
Chair, for 5 minutes.

 STATEMENT OF THE HON. JIM COSTA, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Mr. Costa. Thank you very much, Mr. Chairman, Ranking 
Member, members of the committee, and those witnesses who will 
be testifying this morning, for this important hearing that we 
are holding this morning.
    The devastating drought that has impacted California has 
been hardest hit in the San Joaquin Valley, the area that I 
represent with my colleagues, David Valadao and Jeff Denham. We 
have tried everything possible to try to, in effect, bring 
together a bipartisan effort to fix what is a broken water 
system in California. And, believe me, it is broken.
    And this is not new. This 4 years of drought has 
highlighted the inability of the water system that we have in 
California, the Federal and the state water projects, to meet 
all of the demands that are now asked of them; but this was 
known 25, 30 years ago. Governor Brown, when he was last 
governor back in the early 1980s, tried to fix California's 
state water system. Governor Deukmejian tried, Governor Pete 
Wilson tried, Governor Gray Davis tried, Governor 
Schwarzenegger tried, and the reincarnation of Governor Brown 
again is trying to fix this broken water system.
    Because it is understood that, to meet the demands of a 
growing state, when the initial water systems were developed, 
we had 20 million people. Today we have 40 million people. And 
we have much more intensive agriculture than we had back in the 
1950s and 1960s. In addition to that, we have more demands 
placed upon the water system for environmental needs that are 
important, as well.
    So, when you have continuous drought years as we have had--
these last 4 years were perhaps the driest 4 years in over 
1,200 years, climatologists have determined--you see the 
problems and the fault lines within the existing water system, 
and why we have to fix it. It is a Federal issue and it is a 
state issue, and we have to work together to make a difference.
    In the last 4 years, we have seen people in my communities 
have a situation in which they have gotten a zero water 
allocation--zero--over the last 2 years. Communities on the 
east side and the west side, 15 communities have had their 
wells go dry, meaning no water. We have had a situation in 
which it has had a disastrous impact as it relates to the 
ground water and subsidence. And clearly, the current situation 
is we are trying to hang in there, because we have over 600,000 
acres that have gone fallow over the last several years, 
fallowing crops that we would normally grow--tomatoes, 
asparagus, melons, all sorts of good products that are healthy 
for Americans' diet go unplanted because they are trying to 
keep permanent crops alive. And that is just the nature of 
farming.
    But we are doing so in a way that is unsustainable, because 
we are taking water out of the ground that in the long term 
just is not feasible to continue to stay in business. And now 
we are hearing that the El Nino conditions which we have been 
blessed with over the last 6 weeks are beginning to collapse. 
The high pressure ridge is coming back, and some climatologists 
are predicting that we will get an inverse condition in which 
next year will be a La Nina, which means we get less water, 
another drought condition.
    Nothing could be worse for the people of the San Joaquin 
Valley, for the farmers, for the farm workers, and for the farm 
communities in which we have experienced 30-40 percent 
unemployment in recent years. These are people's lives that we 
are talking about, and it is also our ability to produce the 
food necessary for America's dinner table that is impacted.
    And this is a combination of not just drought conditions, 
but regulatory controls that I don't think is using the best 
science. The biological opinions that we have operated under, 
frankly, have not taken into account the dramatic stress that 
is taking place.
    Let's be clear. I mean we have been operating these 
projects during these drought conditions for one first priority 
only, and that is to try to protect the survivability of Delta 
smelt and other species. And we have put that priority over 
people. Whether you agree or disagree, that has been the 
effect.
    And I would feel a little bit better about it if we were 
being successful. If we were propagating the Delta smelt and we 
were increasing the salmonoid, at least you could see a cause 
and effect. But I think you cannot see a cause and effect 
because the science and the biological opinions are flawed.
    We will hear more from the witnesses about the testimony 
here, but let me just close with this thought. We could have 
maybe--I don't know, we are at 115 percent of normal, maybe we 
could have 150 percent of normal. We pray for rain and snow the 
next 2 months. If we have those conditions, we could have all 
of California having a better water supply, except the San 
Joaquin Valley, where we could still have zero allocation for 
water.
    Let me tell you something. That is unacceptable, it is 
avoidable, and it is immoral. Thank you very much for the time, 
Mr. Chairman. I look forward to the witnesses' testimony.
    [The prepared statement of Mr. Costa follows:]
Prepared Statement of the Hon. Jim Costa, a Representative in Congress 
                      from the State of California
    I'd like to thank the Chair and the Ranking Member for holding a 
hearing on this topic of great importance to the people of the San 
Joaquin Valley of California.
    As we have discussed in this subcommittee, California is 
experiencing its most serious drought since the 1977 drought, and by 
some accounts, the state's worst drought in over 1,200 years. It has 
had its most serious impacts in the San Joaquin Valley.
    In the last 4 years, agricultural water service contractors on the 
west side of the San Joaquin Valley received an average of a 15 percent 
allocation, and they received a zero percent allocation over the last 2 
years. Impacts in the Friant Division, on the east side of the Valley, 
have been equally severe.
    In 2014, for the first time since the creation of the Friant 
Division, Reclamation was unable to meet its obligations to the senior 
water rights holders by withdrawing water from the Sacramento-San 
Joaquin Bay-Delta.
    Instead, the water that has historically been provided to the 
communities in the Friant Division was directed down the San Joaquin 
River to meet the needs of senior water rights holders. These factors 
resulted in significant reliance on groundwater pumping, ultimately 
leading to predictably disastrous groundwater overdraft and the wells 
for 15 communities going dry.
    Hydrological conditions for the beginning of this water year have 
improved dramatically, though the last 2 weeks have been hot and dry 
and it is now predicted that next year will bring La Nina conditions, 
which exacerbate drought.
    Today, tens of thousands of acre-feet of precious water will flow 
through the Sacramento-San Joaquin Bay-Delta and out into the ocean. 
Only a small amount of it will be pumped out of the Delta, to move 
south to irrigate the fields of the San Joaquin Valley and to assist 
communities across Southern and Central California in recovering from 
the pernicious drought we have faced for the last 4 years.
    There are many times this year that the pumps could have been 
operated to their permitted capacity without impairing the water 
quality for communities within the Delta. The simple reason that they 
are not being operated to capacity is that regulatory controls will not 
allow it.
    Some of those regulatory controls are designed to ensure that 
communities that draw water from the Delta do not draw brackish, salty 
water. No responsible party is trying to make that happen.
    However, there are other regulatory controls in place to protect 
the Delta smelt and listed salmon runs that have serious impacts above 
and beyond the standards to protect Delta communities from brackish 
water. And it is these controls, known as Biological Opinions, that 
have resulted in a disconnect between water supply reliability and the 
underlying rainfall and snowpack falling in the state.
    It is clear that the most serious impacts in the state over the 
last few years have been because of a lack of rainfall and snowpack. 
However, what is just as clear is that project operations this year, 
when rainfall and snowpack have been plentiful, are being severely 
impacted by regulatory controls.
    A choice has been made--to take water away from communities in dire 
need of it--in order to provide uncertain benefits to species that have 
been harmed by a host of reasons, including being eaten by non-native 
species that humans have introduced into the ecosystem, as we learned 2 
weeks ago in this subcommittee.
    This is not the first drought California has faced . . . nor will 
it be the last. What we have to determine is what the future of 
California looks like?
    Will we allow communities to dry up and blow away? Or will we come 
together and craft a solution that can improve conditions for everyone 
across the state, while focusing on drought recovery for those who have 
been most affected?
    I continue to believe that government can still do great things, if 
we come together and focus on achievable solutions. I remain committed 
to working with my colleagues on both sides of the aisle to craft a 
solution that increases California's drought resiliency and provides 
water to those communities most impacted by this most recent drought.

    Thank you, and I yield back the balance of my time.

                                 ______
                                 

    Dr. Fleming. I thank the gentleman. We are now ready for 
witness testimony.
    I will remind the witnesses how our clock works. You have 5 
minutes for your testimony. You will be under a green light for 
4 minutes. When it turns yellow, that is a caution that you are 
within the last minute. When it turns red, if you haven't 
already concluded, we ask that you quickly conclude. Trust me, 
every word of your testimony will appear in the record, even if 
it is 10 minutes long. We just cannot hear but 5 minutes of it.
    So, therefore, I will introduce our witnesses today. First 
is Mr. Brett Barbre, a Director of the Municipal Water District 
of Orange County, from Yorba Linda, California. And now I defer 
to Mr. LaMalfa for an introduction, as well.
    Mr. LaMalfa. Thank you, Mr. Chairman. It is my pleasure to 
introduce today Thaddeus Bettner, who is the General Manager of 
the Glenn-Colusa Irrigation District. He has decades of 
experience with irrigation and water agencies in the planning, 
design, operation, and management of water delivery systems on 
the local, state, and Federal levels. He has worked for water 
agencies in Sacramento Valley, San Joaquin Valley, and Imperial 
Valley, and began serving as the Glenn-Colusa Irrigation 
District's General Manager in 2006.
    He is actively engaged in the development, very 
importantly, of the Sites Reservoir, and plays a key role with 
the Sites Joint Powers Authority. He is a registered civil 
engineer with the state of California and holds a bachelor of 
science in Ag. from Cal Poly San Luis Obispo--go, Mustangs.
    Thad's role as General Manager of GCID, which holds the 
most senior water rights in California, means that in the past 
few years he has balanced the needs of his district with its 
ability to aid its neighbors. While GCID is one of the few 
entities that has received Federal water deliveries, the 
district has worked the surrounding water suppliers to help its 
neighbors survive this drought.
    Thad and GCID should be commended for this effort, and we 
welcome them all here today. Thank you.
    Dr. Fleming. OK. Next on the panel, Mr. Richard Pool, 
President and Owner of Pro-Troll Fishing Products, from 
Concord, California; Mr. David Murillo, Director of the Mid-
Pacific Region of the Bureau of Reclamation in Sacramento, 
California--he is accompanied by Dr. Ren Lohoefener, Director 
of the Pacific Southwest Region of the U.S. Fish and Wildlife 
Service in Sacramento, California; and Mr. Thomas Birmingham, a 
General Manager of the Wetlands Water District, which is based 
in Fresno, California.
    The Chair now recognizes Mr. Barbre for his testimony.
    You have 5 minutes, sir.

 STATEMENT OF BRETT BARBRE, DIRECTOR, MUNICIPAL WATER DISTRICT 
           OF ORANGE COUNTY, YORBA LINDA, CALIFORNIA

    Mr. Barbre. Thank you very much, Chairman Fleming, Ranking 
Member Huffman, and members of the committee. It is indeed a 
pleasure to be here. My name is Brett Barbre. I am an elected 
director of the Municipal Water District of Orange County. We 
have 3.1 million residents in Orange County that depend on us 
importing water through the Metropolitan Water District of 
Southern California, of which I am also privileged to serve as 
a Director.
    Southern California, as you know, is a wonderful place to 
live. It has wonderful weather. And it is basically an 
irrigated desert. We have been able to survive because of three 
things: we have developed substantial water storage, an 
abundant source of power, and the ability to provide sanitary 
conditions. And that is the definition of a first-world 
economy.
    In Southern California--I want to talk a little bit about 
our history, and how we came to be, and just some critical 
thoughts that may be helpful.
    If you look at the dam development of California, it all 
has to do with dams and water storage. The first major one was 
the O'Shaughnessy Dam in 1923, which gave us the pipeline, also 
known as Hetch Hetchy. Parker Dam, which Metropolitan paid to 
build, allows us to provide water for both Arizona and 
California, we built that in 1939. Shasta Dam, Central Valley 
Project, that came on board in 1945. It has 4\1/2\ million 
acre-feet of storage. Oroville Dam, part of the State Water 
Project, 3\1/2\ million acre-feet, that came on-line in 1968.
    Since that time, there has been one major storage facility 
constructed in California, and that was the Diamond Valley Lake 
that Metropolitan Water District paid for themselves with 
ratepayer dollars. That came on-line in 1999.
    So, if there is any reason why there is a shortage of water 
in California, it is because we do not have enough storage.
    I think it is important to compare and contrast both the 
Colorado River and the State Water Project. The State Water 
Project has four times the flow that the Colorado does, yet has 
half the storage. The Colorado River, we have been in technical 
drought for 15 years, yet we have no shortage, because we have 
so much storage and we are able to balance it.
    But I want to talk about 1977. Jerry Brown was governor 
then; things have not changed much to 2014. But in 1977, 
Metropolitan, which has an allocation of roughly 2 million 
acre-feet, decided to turn back their water. A little community 
of Marin was running out of water, so they had to jury-rig a 
pipe across the Richmond Bridge to get water into their 
reservoir. As it turned out, some of Met's water went into 
their reservoirs, and we were happy to do that. In the water 
business, we try to help everybody out.
    So, Southern California decided we cannot really rely on 
the State Water Project. We know we are going to have growth in 
our area. In fact, in the last 25 years we have had a growth of 
over 5 million people and we are serving less water. So, we 
have become more efficient.
    Between 1977 and 2014, we invested $14 billion of our 
ratepayer dollars. We built Diamond Valley Lake. We did 
substantial upgrades on our treatment plants. We developed 
water use efficiency, groundwater storage. In Orange County, we 
have the very first groundwater replenishment system, where we 
take a stream of water from the sanitation district, purify it, 
and put it back in the groundwater basin. We use the water over 
and over and over again.
    In 2014, we had 5\1/2\ million acre-feet of capacity of 
storage. We had almost 2 million acre-feet in storage that we 
could draw on. And, do you know what Marin had to do that year? 
They had to jury-rig a pipe across the Richmond Bridge to get 
water into their reservoir.
    So, Southern California is making the investments. At the 
Municipal Water District of Orange County we just completed a 
reliability study to determine is the Delta really all that 
important, because we hear from folks, ``Oh, you can conserve 
your way, you can do groundwater storage, you can do 
recycling.'' Without a Delta fix, we are reliable 3 out of 
every 10 years. That means we are in shortage 7 out of 10. With 
a Delta fix of some sort, it is 1 in 10 where we may have a 
challenge.
    The final point I will make--and I am not going to blame 
this all on a fish, but in 1977, which was the driest year in 
history, the State Water Project was able to produce 400,000 
acre-feet for Southern California, which we turned back. Last 
year only 100,000 acre-feet. So something needs to be fixed, 
and I encourage this committee to move forward on that. Thank 
you.
    [The prepared statement of Mr. Barbre follows:]
  Prepared Statement of the Hon. Brett R. Barbre, Director, Municipal 
  Water District of Orange County (MWDOC) and Director, Metropolitan 
Water District of Southern California (MWD) representing the Municipal 
                    Water District of Orange County
    Chairman Fleming, Ranking Member Huffman, distinguished members of 
the committee, my name is Brett Barbre and I am an elected Director of 
the Municipal Water District of Orange County (MWDOC) and am an 
appointed Director of the Metropolitan Water District of Southern 
California (MET) as one of four representatives from MWDOC. I 
appreciate the opportunity to be here this morning to share a few 
thoughts regarding the impact on the Southern California water supply 
due to the lack of resolution with the Sacramento-San Joaquin Bay-
Delta.
    We have a water system in California that is broken under the 
weight of environmental problems and regulations, lack of investment 
and outright political obstructionism. When the rains finally returned 
to California this winter and the rivers began to rise in Northern 
California, our water system in the Bay-Delta had to decrease pumping 
rather than take advantage of the opportunity to store as much as 
possible for future use. In years past we started to face these kinds 
of restrictions after the projects began taking Delta smelt. However, 
this year the restrictions kicked in before the projects took a single 
smelt as the regulations this year say we could face even greater 
restrictions if we take 56 fish. That is right, 56 smelt. And bear in 
mind that more than 3,000 smelt are routinely taken for research and 
sampling purposes.
    The California water system has been living off the investments of 
past generations, and the bill of inaction is coming due.
    There have been significant investments over the past generation at 
the local level, most notably in Southern California within the 
Metropolitan Water District service area. But statewide the system is 
largely the same one we had more than a generation ago even though the 
state population has more than doubled. Keep in mind that the planning 
for the State Water Project began in 1956 and the first deliveries to 
Southern California occurred in 1971--nearly 45 years ago.
    As a representative of an agency that receives water from both the 
Colorado River and the California State Water Project, it is fair to 
compare and contrast the experience on both systems.
    While the California system has four times the flows of the 
Colorado River, it has less than half the storage. This disparity has 
significant and demonstrable impacts. The Colorado system has 
essentially been in drought conditions this entire century yet the 
system has gone for more than 15 years without any shortage conditions 
because its storage system can hold four times the average runoff of 
the basin. When big storms have occurred this century on the Colorado, 
the system can capture every drop. However, when big storms happen in 
Northern California, we have seen up to 80 to 90 percent of the water 
coming into the Delta going out to the ocean--not exactly a 
``beneficial use'' of fresh water.
    What we need in California is a new generation in investment and a 
new management ethic that does not look for reasons to deny water for 
the economy.
    The design of the water system in the Delta needs to be improved so 
that water can be captured in the northern Delta and transported to the 
aqueduct system in the southern Delta. We must remember that this 
supply is vital for the economies of the Silicon Valley, the Central 
Valley and $1 trillion Southern California economy.
    Versions of this improvement have been around for decades, and it 
is beyond time to make this system investment. As far back as 1973 when 
the Delta Environmental Advisory Committee was formed, it was 
determined that a properly designed facility that eliminates the need 
to use the Delta as a conveyance facility would guarantee that the 
affected environments would be adequately protected.
    Governor Jerry Brown's current administration is moving forward 
with this project, known as California WaterFix and while it is part of 
a solution, it is not THE solution. We simply need to regain our 
ability to capture water when it is wet so the economy has supplies 
when it is dry. We have lost that ability for various environmental and 
regulatory reasons and strangling the economy's water supply is not 
good for the environment; it is not good for anyone; it puts at risk 
our Nation's food security.
    The basic reason for California WaterFix is straightforward. We 
need intakes in two different places in the Delta, north and south, in 
order to reliably divert water and avoid conflicts with endangered 
species; we need a flexible, modern system.
    The California WaterFix would build three new intakes in the 
northern Delta and a tunnel pipeline system to move the water to the 
aqueducts. The California WaterFix does not solve all of the state's 
water problems but it would eliminate a bottleneck in the heart of the 
statewide system. California will need to continue to develop more 
local supplies such as what we have done in Southern California.

    In 1977, which was the driest year on record, the State Water 
Project was able to deliver 400,000 AF of water to MWD; in 2014 we 
received 100,000. We seem to be going backwards. Just since January 1, 
2016, over 200,000 AF of water has been allowed to flow out to the 
Pacific Ocean which ordinarily would be stored for later use. This is 
simply unacceptable.

    Across the state we need more storage, north of the Delta and south 
of the Delta. Storing water away in the wet years means more for both 
the economy and the environment in dry years. We have long tried to run 
this water system with inadequate storage and the problem reveals 
itself every time it stops raining. We need to stop fooling ourselves 
that we can be the 7th largest economy in the world without a world 
class water system that is up to today's challenges.

    The Municipal Water District of Orange County supports both Mr. 
Valadao's H.R. 2898 and Senator Feinstein's S. 2533 in hopes that a 
FORMAL conference committee will be convened so an equitable solution 
to the benefit of all Californian's can be reached.

    This concludes my statement and will be happy to respond to any 
questions.

    Thank you.

    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 
    
                                 
    Dr. Fleming. Thank you.
    Now Mr. Bettner, I recognize you for 5 minutes.

 STATEMENT OF THADDEUS BETTNER, GENERAL MANAGER, GLENN-COLUSA 
            IRRIGATION DISTRICT, WILLOWS, CALIFORNIA

    Mr. Bettner. Chairman Fleming, Ranking Member Huffman, and 
members of the subcommittee, thank you for the opportunity to 
present my testimony today, as well as the written testimony 
for your record. My name is Thaddeus Bettner. I am the General 
Manager of Glenn-Colusa Irrigation District, the largest 
district in Northern California.
    The multi-year drought has significantly reduced natural 
inflows to reservoirs, including Lake Shasta, significantly 
affecting our water supplies, as well as the Central Valley 
Project. The drought has also complicated the management of the 
system to benefit species like the winter-run Chinook salmon. 
These pressures will continue to mount in dry years, and even 
in normal years.
    For the 2016 water year, fishery agencies have already 
expressed concern that winter-run salmon losses in 2014 and 
2015 have put the species at risk of extinction and, therefore, 
will necessitate even greater protection. As Member Huffman 
reported, only 5 percent of the winter-run Chinook salmon 
supposedly spawned in 2014, and only 3 percent are expected to 
this past year, in 2015.
    Unfortunately, this factoid has now become the bumper 
sticker of the current state of winter-run salmon, without much 
critical evaluation of underlying data or science. The problem 
we have is that the monitoring data are faulty during high-flow 
events, which we experienced in 2014 and 2015, particularly in 
December and January of those years. The modeling further shows 
that winter-run actually should have survived, but that 
modeling, which has been used for years, has now been rejected.
    Improvements must be made in the monitoring locations and 
calculations to more accurately estimate fish survival rates, 
particularly if those estimates are used to impact the Central 
Valley Project, as well as our water supplies.
    For the past 2 years, our district, as well as other 
districts, which we refer to as the settlement contractors, 
have voluntarily reduced our diversions in April/May in order 
to better align our diversions with the needs of winter-run. 
And we have also diverted far less than what our contract 
provided for in those years. We have also worked cooperatively 
with our neighbors and entities south of the Delta to try to do 
voluntary water transfers as a method to balance water in the 
state.
    However, in 2016, the perceived poor 2014 and 2015 winter-
run Chinook survival rates discussed earlier are leading the 
fishery agencies to make extremely proactive and protective 
decisions on the operations of the Central Valley Project (CVP) 
that will affect releases to the project, as well as our water 
supplies.
    To date, the fishery agencies have focused solely on 
temperature management as a key factor, yet other factors that 
likely have a larger impact on salmon, from physical habitat 
improvements to predation, are not being considered or 
implemented.
    For 2016, the settlement contractors are working closely 
with Reclamation--and, hopefully, David Murillo will report on 
that--on our diversions to maximize the efficient operation of 
the Central Valley Project and our supplies, as well.
    Additionally, we are trying to work to meet more flows to 
the Delta to help with Delta operations and exports for our 
partners south of the Delta.
    While that is of a critical nature, I do want to report 
some good news. We have been working very closely with our 
settlement contractors, Reclamation, and the Golden Gate Salmon 
Association (GGSA), on developing voluntary restoration 
projects in the Sacramento Valley. In addition to the $600 
million that have been invested in the Sacramento Valley on our 
diversion structures and fish screens, we are also implementing 
voluntary restoration projects.
    In my written testimony, I reported on four such projects 
that we are currently working on. We have completed two so far. 
One was a gravel restoration project for side stream channels 
last year, again, as partners with Reclamation and GGSA. 
Another settlement contractor completed a structure called 
Knights Landing Outfall Gates, which will prevent the strain of 
salmon historic drainage channels, therefore increasing the 
number of salmon moving upstream to spawn.
    Currently, we are working on another gravel restoration 
project in the Sacramento River, putting about 8,500 cubic 
yards of gravel into the river to assist with winter-run and 
other salmon spawning activities. And last, there is 
significant work currently occurring in the Yolo Bypass in 
order to prevent stranding there.
    As Congressman LaMalfa reported, we are also working on 
Sites Reservoir, which we believe is another vital piece of 
infrastructure in the Sacramento Valley, which will improve the 
operations of the Central Valley Project, provide cold water 
for fishery when needed, and also provide additional winter 
water supplies available to other contractors.
    In terms of recommendations, I have included five. As I 
reported earlier: (1) better monitoring needs to be done on 
winter-run Chinook salmon in the Sacramento Valley, 
particularly to address high-flow scenarios; (2) funding and 
permitting--we need expedited permitting to get our projects 
done. As I reported, four projects, where it took an enormous 
amount of time and cost in order to complete these projects; 
(3) predation and other factors impacting survival--needs to be 
addressed; (4) improved habitat; and (5) I addressed storage.

    I thank you for the opportunity to present this testimony, 
and I look forward to your questions.

    [The prepared statement of Mr. Bettner follows:]
  Prepared Statement of Thaddeus Bettner, PE, General Manager, Glenn-
                       Colusa Irrigation District

    Chairman Fleming, Ranking Member Huffman and members of the 
subcommittee, I am Thaddeus Bettner, the General Manager of the Glenn-
Colusa Irrigation District (GCID), the largest irrigation district in 
the Sacramento Valley. Thank you for the opportunity to provide GCID's 
perspective on the issue of how the Federal Government can help address 
the challenge of this coming 2016 water supply limitations and impacts 
of a multi-year drought in California.

    GCID covers approximately 175,000 acres in Glenn and Colusa 
Counties, and is located about 80 miles north of Sacramento. Our 
district contains a diverse working landscape including a variety of 
crops such as rice, tomatoes, almonds, walnuts, orchards, vine seeds, 
cotton, alfalfa, and irrigated pasture. Just as important, we convey 
water to three Federal wildlife refuges totaling more than 20,000 
acres, private wetland and habitat lands of approximately 1,500 acres, 
and in the fall and winter deliver water to more than 50,000 acres of 
seasonally flooded irrigated lands that also serve as surrogate 
wetlands for the Pacific Flyway. GCID is a Sacramento River Settlement 
Contractor and diverts water directly from the Sacramento River through 
the largest flat plate fish screen in the world. GCID's Settlement 
Contract was first entered into in 1964 and it resolved disputes with 
the United States related to the seniority of GCID's rights over those 
of the United States and, in fact, allowed the U.S. Bureau of 
Reclamation (Reclamation) to obtain water rights from the State Water 
Resources Control Board (SWRCB) for the Central Valley Project (CVP). 
GCID's water rights originated with a filing in 1883 for 500,000 
miner's inches under 4 inches of pressure, one of the earliest and 
largest water rights on the Sacramento River.

    Other water right holders on the Sacramento River also entered into 
Settlement contracts with Reclamation. The Sacramento River Settlement 
Contractors (SRSC), covering approximately 480,000 acres, are various 
irrigation districts, reclamation districts, mutual water companies, 
partnerships, corporations, and individuals situated in the Sacramento 
Valley, and formed under the provisions of California law. Among 
Reclamation's hundreds of CVP water supply contracts, the SRSC have a 
unique history and nature. The SRSC divert water from the Sacramento 
River, miles upstream from the Bay-Delta and the boundaries of the 
Delta habitat, under water rights that were vested under California law 
well before the construction of the CVP began. The SRSC own and operate 
their own diversion facilities, and their water rights are not 
dependent in any way upon the operations or facilities of the CVP. The 
SRSC every year manage water for various beneficial purposes in the 
Sacramento Valley, including farms, birds and the Pacific Flyway, 
cities and rural communities and fisheries. This requires creative 
management and trade-offs by water resources managers.
    Notwithstanding the seniority of our water rights on the Sacramento 
River, the multi-year drought has significantly reduced natural inflow 
into reservoirs, including Lake Shasta, putting extreme pressure on our 
water supply and the CVP. The drought has also greatly complicated the 
management of the system to benefit endangered species, like winter-run 
Chinook salmon. These pressures will continue to mount in dry years and 
likely exist even in normal water years.

    In this context, I want to focus on the following issues:

  1.  How winter-run salmon fishery monitoring limitations are 
            affecting CVP operations;

  2.  A summary of CVP operations in 2014/2015 and the plan for 2016;

  3.  SRSC initiatives and experience in actions and restoration 
            projects to benefit salmon; and,

  4.  Recommendations on how the Federal Government can help address 
            the fishery-related water supply challenges of 2016 and 
            beyond.

  winter-run salmon fishery monitoring limitations are affecting cvp 
                          reservoir operations

    For the 2016 water year, fishery agencies have already expressed 
concern that winter-run salmon losses in 2014 and 2015 have put this 
species at the risk of extinction and, therefore, will necessitate even 
greater protection. As stated in the National Oceanic, and Atmospheric 
Administration (NOAA) Fisheries Species in the Spotlight \1\ document, 
``California's current drought began in 2012, and winter-run Chinook 
salmon are experiencing the consequences of low water storage and a 
limited volume of cold water in Shasta Reservoir. Monitoring data 
indicated that approximately 5.6 percent of winter-run Chinook salmon 
eggs spawned in the Sacramento River in 2014 survived to the fry life 
stage.'' For 2015, the fishery agencies are predicting only a 3 percent 
survival, again based on monitoring data only.
---------------------------------------------------------------------------
    \1\ Species in the Spotlight, http://www.nmfs.noaa.gov/stories/
2016/02/docs/sacramento_winter_ 
run_chinook_salmon_spotlight_species_5_year_action_plan_final_web.pdf.

    Unfortunately, this factoid has now become the ``bumper sticker'' 
of the current state of winter-run salmon, without much critical 
evaluation of the underlying data or science. The following discussion 
---------------------------------------------------------------------------
will focus on two main points:

    <bullet> The estimated survival rates are based on interpreted fish 
            trap monitoring data not temperature modeling; and

    <bullet> Late-fall run salmon estimated survival comparison.

Fish Monitoring versus Temperature Modeling

    The estimated high mortality of 95 percent for winter-run eggs in 
2014 and the estimated 97 percent mortality for 2015 were not based on 
modeling of thermal impacts on eggs, but instead were based on 
comparing the estimated total numbers of eggs laid in the river gravels 
in upstream spawning areas near Keswick Dam to the numbers of fish 
captured 50 river miles downstream at Red Bluff Diversion Dam (RBDD), 
see Figure 1. The Species in the Spotlight document states, ``The 
extremely limited production in 2014 is hypothesized [emphasis added] 
to be the result of warm water temperatures that caused egg and newly 
hatched fry mortality and low flows that led to increased predation.'' 
In fact, however, detailed analyses of water temperature effects on 
incubating winter-run Chinook eggs, using three independent models, 
revealed that some mortality did occur but was far less than 
hypothesized. Depending on the model, egg mortality from time of 
deposition to fry emergence from the river gravels, based solely on 
water temperatures, ranged only from 9 percent to 19 percent in 2014 
and 2 percent to 18 percent in 2015. So, why the difference?

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 


	Fig. 1. The upper Sacramento River between Keswick Dam (River Mile 
           302) and Red Bluff Diversion Dam (River Mile 243)

    These widely divergent egg mortality estimates are likely due to 
the manner in which the fishery agencies interpolate the downstream 
fish monitoring data. In this regard, the U.S. Fish and Wildlife 
Service (USFWS) operates three to four 8-foot diameter rotary screw 
traps at Red Bluff Diversion Dam (RBDD) that filter a small percentage 
of the Sacramento River flow, see Figure 2. The number of fish caught 
in the traps is then extrapolated to determine the total number of fish 
that would have passed in the river. While the traps function well 
during stable flows, the fish traps cannot operate during high-flow and 
turbid events due to debris and safety issues. GCID has its own fish 
trap at its screened diversion facility, and during very high flow 
events we also have to stop operating our trap due to safety and debris 
issues. Unfortunately, however, these events are when large numbers of 
juvenile winter-run Chinook would be expected to migrate downstream, 
particularly under hydrologic conditions present in 2014 and 2015.

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 


	Fig. 2. Location of Rotary Screw Traps at Red Bluff Diversion Dam

    This circumstance is problematic because large numbers of young 
winter-run salmon display a pattern of holding and rearing in upstream 
areas during summer and fall low-flow conditions then exhibit a large-
scale, episodic out-migration when the first seasonal storms cause 
increased flows and turbidity. During 2014, when large numbers of 
winter-run salmon would be expected to migrate downstream during 
increased flows, the RBDD fish traps were not in operation much of the 
time and, undoubtedly, many fish passed RBDD undetected. To account for 
these data gaps, the USFWS estimates the numbers of fish not sampled 
(when traps are not in operation) by interpolating numbers of fish 
captured prior to and after unsampled time periods. This interpolation 
method to estimate the numbers of salmon migrating past RBDD during 
unsampled days is probably satisfactory if riverine conditions (e.g., 
flow and turbidity) are relatively stable, the period of consecutive 
unsampled days is short, and expansion factors are appropriate.

    However, in December 2014, the upper Sacramento River experienced 
major storms and runoff leading to 24 unsampled days and just 7 sampled 
days (see Figure 3, which shows the daily flows (cfs) and turbidity 
(NTUs) measured at the Bend Bridge gauge upstream from RBDD during the 
periods when no fish sampling occurred at RBDD). The present 
interpolation method is likely to bias the estimates too low, possibly 
extremely low, because of large-scale salmon out-migration occurring 
during high, turbid flows. As a consequence, the overall estimates of 
fish survival were likely underestimated (or mortality overestimated). 
Additionally, factors used to expand the actual numbers of fish 
captured in the fish traps at RBDD to estimate total daily numbers of 
fish passing the dam possess questionable reliability and accuracy to 
compare annual fish survival estimates.

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 

	Fig. 3. Daily flows (cfs) and turbidity (NTUs) measured at the Bend 
 Bridge gauge upstream from RBDD during December 2014 and the periods 
   when no fish sampling occurred at RBDD (which is used to estimate 
                      juvenile salmon production)

Late-Fall Run 3 Percent Survival Example

    The problem with the use of the existing RBDD fish trapping data to 
estimate fish survival is evident by comparing annual survival 
estimates for late-fall-run Chinook salmon with winter-run Chinook 
salmon. An examination of past estimates for late-fall-run Chinook 
survival revealed the 11-year average of survival from 2002 through 
2012 was just 3 percent (lower than the purported winter-run survival 
in 2014 and 2015), see Table 1. If late-fall-run Chinook experienced 
such a consistent extremely high level of mortality in the earliest 
life stages solely in the reach upstream of RBDD for 11 consecutive 
years, it is doubtful the run would have persisted. Or conversely, 
since 3 percent survival is adequate for the existence of the late-fall 
run species, the concern of extinction for winter-run is unfounded. 
Further examination of the data, however, shows biologically 
implausible results. For example, the late-fall-run egg-to-fry survival 
in 2004 was only 1.2 percent (or 98.8 percent mortality), yet 3 years 
later when most of that brood year would be expected to return and 
spawn, the numbers of adults increased enormously to 13,939 fish (Table 
1). This indicates that the population survival cannot be this low and, 
as such, the monitoring data must not be providing an accurate enough 
escapement number at RBDD, which is the same issue on the low 
survivability of winter-run in 2014 and 2015. Improvements must be made 
in the monitoring locations and calculations to more accurately 
estimate fish survival rates, particularly if those estimates continue 
to impact how the CVP is operated to meet all project purposes.

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 



 	Table 1. Annual estimates of late-fall-run and winter-run Chinook 
  adult salmon upstream of RBDD and corresponding egg-to-fry survival 
          estimates (data obtained from Poytress et al. 2014)

          summary of operations in 2014/2015 and plan for 2016

2014 Summary

    In 2014 and 2015, the SRSC and Reclamation continued coordination 
efforts related to diversions, water transfers, and general CVP 
operations through regular conference calls and meetings. As part of 
the water made available under the Settlement Contracts by Reclamation, 
the SRSC voluntarily committed to shift their diversion pattern to 
better align with the timing of releases for fishery needs. By 
voluntarily delaying SRSC diversions in April and May, Reclamation was 
able to conserve additional storage in Shasta Reservoir to benefit the 
cold water pool and the Upper Sacramento River temperature control 
operation for fishery needs. In addition to the meetings with 
Reclamation, the SRSC met with members of the SWRCB, Division of Water 
Rights staff, the National Marine Fisheries Service (NMFS), the 
California Department of Fish and Wildlife (CDFW), the Department of 
Water Resources (DWR), and other CVP contractors to discuss operations, 
including the technical details of Reclamation's forecasting modeling 
and Sacramento River temperature planning.

    In 2014, the unprecedented effort undertaken by the SRSC to 
voluntarily reduce and minimize diversions in April and May, and the 
subsequent benefits to Shasta Reservoir levels and operations received 
from this effort, were substantial. The efforts by the SRSC 
coordination group shifted more than 125,000 acre-feet (AF) of 
diversions out of April and May, again, to benefit the fisheries by 
expanding the Shasta cold water pool and Upper Sacramento River 
temperature control operations. By delaying planting, this shifted the 
highest crop demand for water to later in the season to align with 
fishery releases. Our landowners were concerned about the delay in 
planting due to postponing harvest and the increased potential for 
precipitation causing complications, increased costs, and reduced crop 
yields. Nevertheless, throughout the period April through October, the 
SRSC were able to limit diversions to less than the scheduled 
diversions coordinated with Reclamation, except for October. In 
October, it was recognized that the remaining water supply was 
available to decompose rice straw while at the same time providing a 
valuable food source for migratory birds and the Pacific Flyway.

    Related to the Settlement Contract provisions, 2014 was classified 
as a Critical Water Year for the Sacramento Valley, and the SRSC 
received a 75 percent Contract Supply. In addition to this 25 percent 
reduction in Contract Supply, the SRSC through careful management and 
coordination, diverted approximately 82 percent of their reduced 75 
percent Contract Supply (or 61 percent of a full 100 percent Contract 
Supply) for agricultural purposes and to incidentally benefit wildlife 
habitat during the period April through October. Through these 
voluntary actions by the SRSC, the CVP was able to operate more 
efficiently and allowed for better management for the winter-run 
salmon.

    The SRSC also agreed to transfer approximately 113,400 AF to areas 
in need of water supplies. After accounting for losses and considering 
demands, approximately 35,500 AF was delivered to CVP water contractors 
in the Sacramento Valley on a similar pattern to which it was made 
available. Transfer water is typically conveyed through the Delta from 
July through September. However, this was not possible due to the 
restrictive operations required to address worsening drought conditions 
and cold-water pool management at Shasta Reservoir. Therefore, 
Reclamation entered into consultation with USFWS and NMFS, to propose 
modifications describing the drought response measures and requested 
extension of the period transfer water may be pumped at Jones Pumping 
Plant, allowing for delivery to the CVP water service contractors 
south-of-Delta. Reclamation received concurrence from the USFWS and 
NMFS, and water was transferred at a time that allowed for stabilizing 
river flows to help with fall-run salmon spawning and preventing red 
de-watering on the Sacramento River.

2015 Summary

    In the spring of 2015, the SRSC again worked closely with 
Reclamation to voluntarily shift diversion patterns to better align 
with the timing of releases from Shasta and Keswick Reservoirs for 
fishery needs. Reclamation requested the total diverted quantity in 
April and May be similar to the total April and May quantity diverted 
during 2014, but be more evenly distributed between the 2 months. An 
increase of 10 percent above the total April and May quantities was 
believed to be needed due the even drier spring months experienced in 
2015 compared to 2014. The SRSC developed estimated schedules to meet 
this goal to delay and minimize diversions for planting until later. 
The SRSC provided daily diversion schedules to Reclamation on a regular 
basis and held weekly coordination calls with Reclamation to closely 
monitor Keswick releases, Sacramento River flows (particularly at 
Wilkins Slough), and diversions, making adjustments as necessary.

    In addition to the meetings with Reclamation, the SRSC met with 
members of the SWRCB, the NMFS, DWR, and CDWFW to develop an even more 
stringent plan for 2015.\2\
---------------------------------------------------------------------------
    \2\ Joint Agency Press Release on ``Drought Conditions Force 
Difficult Management Decisions for Sacramento River Temperatures'', 
http://www.waterboards.ca.gov/press_room/press_releases/2015/
pr061615_shasta.pdf.

    Due to the SRSC voluntarily delaying diversions from April and May, 
Reclamation was able to hold more water in Shasta Reservoir to benefit 
the cold-water pool and temperature management on the Upper Sacramento 
River. As in 2014, due to the effort voluntarily undertaken by the SRSC 
to reduce and minimize diversions in April and May, Reclamation allowed 
the rescheduling of water not diverted in April and May into later 
---------------------------------------------------------------------------
months including July, August, and September.

    As in 2014, 2015 was classified as a Critical Water Year, and the 
SRSC received a 75 percent Contract Supply. In addition to this 25 
percent reduction in Contract Supply, the SRSC coordinated the timing 
and reduction of diversions throughout the period of April through 
October. In total, the group diverted approximately 78 percent of their 
reduced 75 percent Contract Supply (or 58 percent of a full 100 percent 
Contract Supply) for agricultural purposes and to concurrently benefit 
wildlife habitat during the April through October period, and extending 
through December 10, 2015. Figure 4 shows the SRSC contract diversion 
rate, estimated/scheduled diversions, and actual diversions on a daily 
basis from April 1 through December 2015.

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 


	Fig. 4. Sacramento River Settlement Contractor Diversion Schedule

    Additionally, at the request of Reclamation and the SWRCB, the SRSC 
agreed to pursue water transfers to areas of critical need through crop 
idling/shifting and groundwater substitution to further reduce spring 
diversions to maximize and preserve cold water in Shasta Reservoir. As 
a result, the SRSC transferred a total of approximately 207,000 AF to 
areas in need of water supplies, including the San Luis & Delta-Mendota 
Water Authority, the East Bay Municipal Utility District, and the 
Tehama-Colusa Canal Authority. Additionally, with limited diversion 
capacity from the Sacramento River in the summer to protect winter-run 
salmon, the SRSC also voluntary pumped groundwater to meet local 
demands. Later in the year, the SRSC again voluntarily deferred 
diversions to help Reclamation manage cold water and transferred water 
in Lake Shasta, while providing water for approximately 50,000 acres of 
critical bird habitat during the fall before the rains started.

2016 CVP Upstream Operations

    According to Maria Rea, Assistant Regional Administrator of the 
NOAA Fisheries West Coast Region, ``With the loss of two out of three 
cohorts of endangered wild winter-run, it is also critical that we 
develop cold water pool resources this winter and spring to support 
temperature management needed later in the year for this third wild 
winter-run year class.'' \3\ The focus on perceived poor 2014 and 2015 
survival rates is leading the fishery agencies to make extremely 
protective decisions on the operations of the entire CVP project, 
including releases from Shasta Reservoir, diversions by SRSC, flows in 
the Delta, and water available for export to south of Delta CVP 
contractors. To date, the agencies have solely focused on temperature 
management as the key factor, yet other factors that likely have a 
larger impact on salmon, from physical habitat improvements to 
predation, are not being considered or implemented. As an example, the 
Salmon in the Spotlight document states, ``In addition to the drought, 
another important threat to winter-run Chinook salmon is a lack of 
suitable rearing habitat in the Sacramento River and Delta to allow for 
sufficient juvenile growth and survival.''
---------------------------------------------------------------------------
    \3\ Letter from Maria Rea, NMFS to Ron Milligan, USBR. http://
www.westcoast.fisheries.noaa.gov/publications/Central_Valley/
Water%20Operations/winter-run_ juvenile_production_estimate_jpe_-
_january_28_2016.pdf.

    For 2016, the SRSC are coordinating with Reclamation on diversions 
in order to maximize the efficient operation of the CVP while also 
protecting winter-run salmon. However, we are concerned that excess 
protections being requested by the fishery agencies could result in 
limited diversions in the spring, which will lead to mass fallowing of 
land within the SRSC service area. While not a drought impact, these 
actions by the Federal agencies will cause significant harm to this 
region, the local economies, and affect other species like the giant 
garter snake and the Pacific Flyway. Additionally, this will result in 
decreased flows to the Delta impacting operations of the other CVP 
assets, and minimizing exports since most of the remaining flow will be 
---------------------------------------------------------------------------
Delta outflow or meet Delta consumption.

   initiatives and experience in actions and restoration projects to 
                             benefit salmon

    Working with our biologist, Dave Vogel, the SRSC and the Northern 
California Water Association (NCWA), with participation by several 
environmental groups, have developed a Salmon Recovery Program \4\ for 
the Sacramento Valley. There has been tremendous progress on projects 
that have had a positive impact on salmon, yet more work is ahead. The 
Program focuses on fish passage improvements, remanaging flows, and 
habitat improvements. These priorities were originally developed as 
part of Dave Vogel's 2011 comprehensive report, Insights into the 
Problems, Progress and Potential Solutions for Sacramento River Basin 
Native Anadromous Fish Restoration.\5\
---------------------------------------------------------------------------
    \4\ Sacramento Valley Salmon Recovery Program, http://
www.norcalwater.org/wp-content/uploads/Salmon.version.FINAL-
6.17.15.pdf.
    \5\ Vogel Report, http://www.norcalwater.org/wp-content/uploads/
2011/07/vogel-final-report-apr2011.pdf.

    Unfortunately, we have seen few projects completed by the fishery 
agencies in the Upper Sacramento River that benefit winter-run salmon. 
The SRSC have completed fish screens on all larger diversions along the 
Sacramento River at a cost of nearly $600 million, which according to 
some, should have restored the winter-run salmon populations. In 
absence of projects being completed (or even initiated) by the fishery 
agencies, the SRSC have begun implementing the Salmon Action Plan, 
including funding the projects wholly or in part, securing all the 
necessary permits, and completing the restoration activities on our 
own. The SRSC have completed two projects and two new projects are 
---------------------------------------------------------------------------
currently underway, including the following:

    <bullet> Painters Riffle--completed;

    <bullet> Knights Landing Outfall Gates--completed;

    <bullet> Market Street Spawning Habitat--under construction; and

    <bullet> Wallace Weir Rescue Facility (Yolo Bypass)--planned for 
            construction in July 2016

Painters Riffle

    A unique partnership of GCID, Reclamation, Golden Gate Salmon 
Association, NCWA, CDFW, and the city of Redding developed and designed 
the Painter's Riffle restoration project, see Figure 5. With 
Reclamation staff's technical assistance and support from the Central 
Valley Project Improvement Act (CVPIA), GCID used its own staff and 
assets to obtain final permits and construct the proposed Painter's 
Riffle Project in December of 2014. Once the permits and agreements 
were received from numerous agencies including CDFW, U.S. Army Corps of 
Engineers (in consultation with NMFS and USFWS), Central Valley 
Regional Water Quality Control Board, Central Valley Flood Protection 
Board, California State Lands Commission, and the city of Redding, GCID 
staff spent over 500 hours preparing and moving approximately 8,000 
cubic yards of gravel to re-establish the spawning habitat in the side 
channel. The cost of the project, including obtaining the permits, 
actual construction and completion tasks was approximately $300,000. 
Salmon are now spawning in this restored side channel.

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 

   Fig. 5. 2015 Diversions Painters Riffle Restoration Project 
completed by GCID. Video can be seen at http://www.gcid.net/#!painters-
                          riffle-project/qs7o8

Knights Landing Outfall Gates

    In 2015, Reclamation District 108 (RD 108) constructed a fish 
barrier at the Knights Landing Outfall Gates (KLOG) to prevent adult 
salmon from entering the Colusa Basin Drain (CBD) through the KLOG, see 
Figure 6. Before the barrier was constructed, adult salmon were able to 
enter the CBD through the KLOG when certain flow velocities were met 
that attracted migrating salmon. Once salmon enter the CBD, there is no 
upstream route for salmon to return to the Sacramento River and, absent 
fish rescue operations, the fish perish and are lost from production. 
To address this, RD 108 constructed a positive fish barrier with new 
concrete wing walls and metal picket weirs on the downstream side of 
the existing KLOG in the CBD, and placed a small amount of riprap on 
the right bank of the CBD immediately downstream of the KLOG to address 
levee erosion. Construction began in the latter part of August and was 
completed in November 2015. The total cost of the project was $2.454 
million. Funding for the project was provided by Reclamation ($1.45M), 
DWR ($300,000), CDFW ($304,000), and the SRSC ($400,000).

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 


           Fig. 6. Knights Landing Outfall Gates (KLOG)

Market Street Spawning Habitat

    Reclamation, in partnership with GCID, Western Shasta Resource 
Conservation District, DWR, and CDFW are currently placing salmonid 
spawning gravel in the Sacramento River, immediately below the Anderson 
Cottonwood Irrigation District Diversion Dam and Market Street Bridge, 
in Redding, see Figure 7. From February 15 through March 18, 2016, GCID 
will be placing approximately 8,500 cubic yards of gravel into the 
river to help improve spawning habitat for Chinook salmon and steelhead 
trout. The project is a continuing effort to help meet requirements of 
the CVPIA to restore and replenish spawning gravel and rearing habitat 
for salmonid species. Environmental documentation was recently 
completed for the project.\6\
---------------------------------------------------------------------------
    \6\ http://www.usbr.gov/mp/nepa/
nepa_projdetails.cfm?Project_ID=23758.

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 


	Fig. 7. Market Street Gravel Placement Project for Salmon Spawning 
---------------------------------------------------------------------------
                                Habitat

Wallace Weir Rescue Facility

    Under certain flow regimes, adult salmon migrating upriver are 
attracted to enter the CBD from the Yolo Bypass through the Knights 
Landing Ridge Cut (Ridge Cut), see Figure 8. Once salmon enter the CBD, 
there are no upstream routes to return to the Sacramento River and 
absent fish rescue operations, the fish perish and are lost from 
production. Each year at the confluence of the Yolo Bypass and the 
Ridge Cut, a temporary 450-foot long earthen berm, known as the Wallace 
Weir, is installed to create an irrigation backwater. This temporary 
berm blocks fish passage until it is compromised by flood flows each 
year. Once the weir is compromised, fish have free passage into the CBD 
via the Ridge Cut.

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 
               
               Fig. 8. Yolo Bypass Ridge Cut Project

    This project proposes to replace the temporary berm with a 
permanent earthen weir that will be hardened to withstand winter 
floods. A fish rescue facility will be incorporated into the weir so 
fish that arrive at the Wallace Weir via the Yolo Bypass can be safely 
and effectively rescued and returned to the Sacramento River to resume 
their migration to upriver spawning grounds. An inflatable dam and 
positive fish barrier will also be incorporated into the new weir 
structure to better control water releases and fish attraction flows 
through the weir while blocking fish passage. The Wallace Weir Fish 
Rescue Facility will complement the Knights Landing Outfall Gate (KLOG) 
Fish Barrier Project completed in 2015 by RD 108.
    Given RD 108's success in expediting implementation of the KLOG 
Fish Barrier project, DWR has requested that RD 108 take the lead in 
implementing the Wallace Weir Fish Rescue Facility on DWR's behalf. 
This project serves as a fish passage improvement action that will 
impede salmon entry into the CBD while also providing for safe and 
effective fish rescue. The project is one of several being pursued by 
DWR and others to be consistent with the NMFS's 2009 Operations 
Biological Opinion, Reasonable and Prudent Alternative Action, I.7. In 
addition to improving fish passage, the project will also be designed 
to maintain appropriate irrigation water surface elevations without 
impeding outflows during flood season. The weir, inflatable dam and 
fish barrier will be owned and operated by DWR with a construction cost 
of approximately $8,560,000.
                             water storage
    Finally, to help address the longer term water supply needs of our 
region and the state as a whole, we need new Federal assistance tools 
to help local agencies better manage and develop new water supplies 
critical to a more drought resilient economy.
    Sites Reservoir, for example, is foundational to the long-term 
economic health of our region and the state. Sites will bring 1.8 
million AF of new water storage to California. The Sites Project 
represents the kind of new, smart storage that our state needs, one 
that will not only create additional supplies behind the dam itself, 
but will allow significant additional water to be stored in other 
upstream reservoirs (Trinity, Shasta, Oroville and Folsom) due to 
coordinated operations and integration efficiencies. In a year like 
2015, if Sites were in place, it is estimated there would have been an 
extra 400,000 AF of water in storage north of the Delta to meet the 
water needs of agriculture and our cities, as well help meet the 
Central Valley Project obligations for environmental water for fish and 
waterfowl. For 2016, DWR has estimated that an additional 346,000 AF of 
water could have been diverted during the storms through February 9.
    GCID, SRSC, and NCWA strongly support the work of Rep. LaMalfa, 
working with Congressman Garamendi and others, through the introduction 
of H.R. 1060 and their work on other bills to advance the Sites 
Project. We support the work of this committee to seek new ways to 
streamline the environmental review process for new water supply 
infrastructure investments, such as the Sites Project, including the 
water infrastructure environmental review streamlining provisions 
included in H.R. 2898, sponsored by Rep. Valadao. While delays in the 
water supply project environmental review and permitting process are 
due, in part, to the complexities associated with multiple state and 
Federal agencies being involved in the project, other delays are 
attributable to shifting environmental requirements.
    H.R. 2898 seeks to address many of these challenges by establishing 
a lead agency to coordinate all Federal environmental reviews related 
to a surface water storage project and directing that a schedule be 
established and strictly adhered to by Reclamation for the completion 
of all environmental review processes. And, we appreciate that the 
environmental streamlining process proposed in H.R. 2898 includes 
projects, like the Sites Project, which are being developed by non-
Federal entities in cooperation with Reclamation and other Federal 
agencies on non-Federal lands.
    In addition, we encourage the committee to give favorable 
consideration to proposals like those included in S. 2533, introduced 
by Senator Dianne Feinstein, and other bills that seek to authorize new 
funding and financing opportunities to support non-Federal investments 
in needed water supply projects, like the Sites Project. Specifically, 
we strongly support language authorizing the Reclamation Infrastructure 
Finance and Innovation Act (RIFIA), which would provide local agencies 
with access to low-cost, long-term financing for much needed water 
infrastructure investments. If a RIFIA loan program were in place 
today, the program would provide water project sponsors with access to 
loans with a repayment period of up to 35 years at a rate of 
approximately 2.9 percent. For the Sites Project, this would drive down 
the cost of water by approximately $131 an acre-foot, dropping the cost 
from a projected $571 dollars an acre-foot to $440 an acre-foot, an 
overall 23 percent reduction in the cost of water from the project.
                            recommendations
    The perceived lack of survival of winter-run Chinook salmon in 2014 
and 2105 has impacted every aspect of California's water system and 
caused friction in decisions made by Federal, state, and local 
agencies. More must be done to better understand the state of winter-
run salmon, and ensure that the best available science is being 
utilized to determine what projects and actions should be taken to 
ensure the survival of winter-run in the managed system in which we 
operate. The following recommendations are actions that can be taken 
immediately:

  1.  Monitoring. If the RBDD fish sampling program will continue to be 
            used to estimate fish survival, an improved method is 
            necessary to account for fish passage during unsampled 
            periods when flow and turbidity are high. Alternatively, an 
            additional fish sampling site farther upstream where 
            channel and riverine conditions are more stable would 
            provide more-accurate estimates of fish survival, and would 
            be more effective in monitoring annual winter-run survival 
            and the effectiveness of salmon habitat restoration 
            projects in the upper river.

  2.  Funding and Permitting. As stated previously, little if any 
            salmon habitat restoration projects have been done by 
            fishery agencies on the upper Sacramento River. The 
            agencies need to prioritize funding and expedite permitting 
            for local, state, and Federal efforts on the river.

  3.  Predation and Other Factors Impacting Survival. The agencies need 
            to look at all factors that affect winter-run salmon like 
            predation, lack of spawning habitat, lack of rearing 
            habitat, timing of flows, etc. and not focus on temperature 
            alone.

  4.  Habitat. The monitoring of physical habitats utilized by winter-
            run Chinook should be an important component of future 
            monitoring programs. Additionally, there needs to be a 
            concerted effort to improve rearing habitat quality for 
            young winter-run Chinook salmon, which appears to be of 
            poor quality and severely deficient.

  5.  Storage. The evaluation and construction of new water storage 
            that can provide additional cold water benefits during 
            normal and drought years needs to be expedited.

                                 ______
                                 

    Dr. Fleming. Thank you, sir. Next, Mr. Pool.
    Five minutes, sir.

   STATEMENT OF RICHARD POOL, PRESIDENT AND OWNER, PRO-TROLL 
             FISHING PRODUCTS, CONCORD, CALIFORNIA

    Mr. Pool. Thank you, Chairman Fleming, Ranking Member 
Huffman, and members of the subcommittee. My name is Richard 
Pool, and I am here today representing the salmon industry of 
California. This includes the commercial industry, the 
recreational industry, the charter boat industry, wholesalers, 
retailers, and all of the related businesses and communities 
that serve and derive their incomes from the salmon resources 
of California. My written testimony provides more on my 
background, but I have been heavily involved in salmon issues 
for 35 years.
    The subject of this hearing is the impact of 3 years of 
drought on the water supply. I will address these issues as 
they relate to the salmon of the Central Valley. When the 
Central Valley runs are healthy, they support 20,000 jobs in 
California with an economic contribution of $1.4 billion. These 
same fish also support about half of those numbers in the state 
of Oregon.
    Salmon runs are the backbone of the salmon industry. They 
support the coastal communities all the way from Morro Bay in 
California to Cape Falcon in northern Oregon. California fish 
also contribute to the Washington State fisheries. When the 
salmon industry suffers, these communities also suffer.
    [Chart]
    Mr. Pool. I have put up a chart that shows the returns of 
the fall-run fish that have returned to the Central Valley to 
spawn between 1991 and 2014. The fall-run fish is the run that 
we fish on in the fishing industry. As you can see, in 1991 the 
run was very, very low. All the runs were low that year. We had 
just finished a drought.
    The up-sloping line shows what happened after the winter-
run was listed. The Federal Government spent $1 billion in the 
right kind of fixes in the Sacramento River and all the runs 
responded. By 2002, over 700,000 fall-run fish returned to the 
Central Valley to spawn. On top of that, another 700,000 were 
harvested. Therefore, in 2002 we had 1.4 million fish in the 
ocean.
    You then see the crash between 2002 and 2007. In 2004, 
pumping restrictions in the Delta were lifted, and when the 
pumping went up, the salmon runs went down. Then, in 2005 and 
2006, the ocean conditions went very severely poor, and the 
survival, again, was very low.
    By 2007, conditions were so bad the entire salmon industry 
was shut down for 2 years. It was devastating. Boats were 
scrapped, houses were foreclosed, nearly 100 salmon retailers, 
boat dealers, and others were forced to shut down.
    Starting in 2009, things got better. The new Delta 
biological opinions were put in place, and the winters of 2010 
and 2011 were very wet. We had a bump in 2013, and that is the 
bump up.
    The drought started in 2012. A high percentage of the 2012 
juvenile fish were destroyed by the drought. What happens when 
we lose the juvenile fish in the upper river and they do not 
get into the ocean, we are hurting bad.
    There is a 3-year cycle between when the small fish go out 
to the ocean and the adults come back. We just recently got a 
report card. The number of returns recently were announced. We 
have some meetings next year to get the details. The report 
card on 2012 returns were an all-time 15-year low. They were 70 
percent below the average for the last 15 years.
    The number of fish landed by the fishing industry was also 
down. The fishermen are now in a desperate financial condition, 
particularly since the crab season also closed. Most of the 
commercial fishermen in 2015 were unable to make enough money 
to pay their bills.
    The drought years of 2013-2015 were even worse. Mr. Bettner 
reported that only 5 percent of the fish from the upper river 
survived in 2013, 2014, and 2015. To put that in perspective, 
when only 5 percent survive in the upper river, it takes 35 
percent getting outside of the Golden Gate to have a 
sustainable salmon run.
    So, we are in the process in 2015, 2016, 2017, and 2018--I 
think we are facing devastation in the salmon fishery. If you 
do not get them out of the upper river and into the ocean, 3 
years later you will not recount it. I don't think that the 
magnitude of what we are facing in the industry is understood 
by hardly anyone, and I believe it is important for this 
committee at least to understand this.
    There are things that can be done, and they are currently 
not underway. Mr. Bettner mentioned a few things. We have a 
host of projects we have been promoting. Most of them do not 
take more water. Habitat improvements for the salmon----
    Dr. Fleming. Mr. Pool, I am sorry, but time is up.
    Mr. Pool. Let me conclude.
    Dr. Fleming. Sir, I am sorry.
    Mr. Pool. All right.
    Dr. Fleming. Everything, I promise you, will be in the 
written record.
    Mr. Pool. I think you got my message. Thank you very much.

    [The prepared statement of Mr. Pool follows:]
 Prepared Statement of Richard Pool, Representative of the California 
                            Salmon Industry
                              introduction
    Good morning, Chairman Fleming, Ranking Member Huffman, and members 
of the subcommittee. My name is Richard Pool and I am here today 
representing the salmon industry of California. This includes the 
commercial industry, the recreational industry, the charter boat 
industry, wholesalers, retailers and all of the related businesses and 
communities that serve and derive their livelihoods from the salmon 
resources of California.
    I am Secretary of the Golden Gate Salmon Association, President of 
Water4Fish, and past board member of American Sportfishing Association. 
I am also a member of the two primary California commercial salmon 
organizations (Pacific Coast Federation of Fishermen's Associations and 
Small Boat Commercial Salmon Fishermen's Association) and I am a member 
of the San Francisco based charter fleet association (Golden Gate 
Fisherman's Association). I have served on numerous state and Federal 
salmon advisory committees for over 35 years. I am a resident of 
Lafayette, California and my business is Pro-Troll Fishing Products, a 
manufacturer of salmon fishing equipment. We manufacture approximately 
800 types of salmon lures, attractors and electronic devices for 
catching salmon. We sell all over the world but mainly in North 
America.
    The subject of this hearing is the impact of 3 years of drought on 
the water supply. I will address these issues as they relate to the 
salmon of the Central Valley. In addition, I will discuss the impact 
the drought has had on the salmon and the impact it has had on those 
who derive their livelihoods from the harvest of salmon. Then, I would 
like to share with the committee some solutions to these serious 
problems and ask for your help.
           impacts of drought on salmon runs and the industry
    When Central Valley salmon runs are healthy, they support over 
20,000 jobs in the state with an economic contribution of $1.4 billion 
(Southwick Associates, August 9, 2012). These same fish also support 
about half of those same numbers in Oregon. Those salmon runs are the 
backbone of salmon fishing and are a major economic contributor for 
coastal communities all the way from Morro Bay California to Cape 
Falcon in northern Oregon. California fish also contribute to the 
Washington State salmon fleet. When the salmon industry suffers, these 
communities also suffer. Both are currently suffering a lot.
    The drought impact on these salmon has been devastating. Some of 
the impact was unavoidable and some of it was man-made. Let me start 
with a little history. The chart on the screen shows the history of the 
returns of the fall-run salmon from the ocean to the freshwater from 
1991 to 2014. There are four salmon runs in the Central Valley. The 
fall-run has been the largest by a wide margin and it is the only one 
that supports the commercial and recreational salmon industry. As you 
can see, in 1991 and 1992 the run was nearly gone. At that point all 
the runs were near total collapse. In 1992 only 191 winter-run fish 
returned to spawn. At that point, the winter-run was petitioned for an 
endangered species listing under the Endangered Species Act. It was 
listed and a result, the Federal Government spent $1 billion on four 
major recovery projects in the Sacramento River. It worked and all runs 
including the fall-run shown here, benefited.

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 


    You can see that by 2002, over 700,000 fall-run fish returned 
to spawn (Source: CDFW Ocean Salmon Fisheries Report 2009). That was a 
modern day record. On top of that, another 700,000 fall-run fish were 
harvested by the commercial salmon industry. That totals 1.4 million 
adult salmon that were in the ocean in 2002.
    We then see the big slide in the returns between 2002 and 2007. 
There were two primary causes of that slide. First, from 2000 to 2006 
average exports from the Delta increased to 6 million acre-feet--a 20 
percent increase over the previous decade. This was made possible by 
the weakening of Federal protections for the Delta in 2004. The pumping 
went up, particularly in the springtime at a crucial time when all 
juvenile salmon migrate through the Delta. That impact took a heavy 
toll.
    The second reason for this dramatic drop was that in 2005 and 2006 
the ocean conditions for salmon survival were very poor. Very low 
numbers of fish came back. The result is what you see. By 2008 and 2009 
the survival rate was so low that the entire salmon industry was shut 
down for those 2 years. The human impact of that shutdown was tragic. 
Fishing boats were scrapped because the owners could not pay the 
mooring fees. Homes were repossessed and nearly 100 coastal retail and 
service businesses failed. There were similar impacts on hotels, 
restaurants and other supporting businesses that relied on the salmon 
industry. My company lost money in those 2 years and also in the 2 
following years until the runs recovered.
    In 2009, the new biological restrictions on export pumping and 
upriver flow changes took effect and we began to see a recovery. Those 
changes, plus a very wet year in the winter of 2010 and the spring of 
2011, allowed millions of additional juvenile salmon to avoid the 
losses and get to the ocean. The result was evidenced 3 years later 
when those fish matured and returned to freshwater in 2013.
    We then come to the drought years of 2012 through 2018. The damage 
done to the salmon in these years is unparalleled. The main problems 
were lethal water temperatures, low river flows and extremely limited 
habitat, including spawning and rearing areas and the dewatering of 
redds (salmon egg nests) that were laid along the edges of the 
Sacramento River. Salmon laid their eggs when the flows were high, but 
when water flows were later cut, the redds were dried up causing high 
mortality.
    If the water temperature in the spawning streams is 56 degrees 
Fahrenheit or lower, the salmon eggs are stressed but survive. But, 
above 56 degrees the eggs begin to die and at 62 degrees 100 percent of 
them die. Temperatures in 2014 and 2015 were over 62 degrees in almost 
every tributary in the Central Valley. The egg loss was near 100 
percent (Sources: USBR CVO Temperature and Flow Reports, USGS National 
Water Information System Reports by Station).
    The numbers of juvenile salmon migrating down the Sacramento River 
system are counted by the fish agencies with rotary screw traps near 
the city of Red Bluff. In 2014 the data showed that 95 percent or more 
of the juveniles that should have hatched and migrated to Red Bluff 
never showed up. This means survival was only 5 percent. The 2015 
survival was worse yet. This represents a near complete loss of all 
four runs of the wild spawning salmon. A sustainable salmon fishery 
requires that in the order of 35 percent of the juveniles need to make 
it to the Golden Gate and out into the ocean. That did not happen and 
we have lost nearly 100 percent of all the wild spawning fish for 2 
years running in all four of the Central Valley runs. That includes the 
severely depressed populations of the endangered winter-run. The bottom 
line of all of this is that in 2016, 2017 and in 2018, there will be an 
unsustainable low number of adult fish in the ocean. This will create 
another major disaster for the salmon industry.
    Referring back to the chart, the yellow and black line near the 
center is at the ocean abundance figure of 400,000 fish. This 
represents the minimum number of adult salmon in the ocean that it 
takes for the commercial salmon industry to pay their bills and to make 
money. Normally they would harvest about half of these fish (200,000) 
and the other half would return to the freshwater to spawn. You can see 
that most of the recent years are well below that minimum. The 2015 
commercial season is a good example. A high percentage of the 
commercial fishermen did not catch enough fish in 2015 to pay for fuel 
and other bills. For a good part of the season their boats remained 
tied up at the docks. They are in a desperate financial condition 
particularly since the crab season was also canceled. I am aware of 
some who have already had to sell their boats to survive. Because of 
the drought, the 2016, 2017 and 2018 results are destined to be even 
worse than those of 2014 and 2015.
    The California Legislature has registered deep concern about the 
severe losses in the salmon populations. Senator Mike McGuire is 
Chairman of the California Joint Committee on Fisheries and 
Aquaculture. In a Sacramento committee hearing in early February, he 
said, ``These are truly desperate times. Imagine losing 75 to 100 
percent of your annual income, and trying to survive. I cannot say this 
more bluntly. We are facing a fishery disaster in California and 
families who have relied on the mighty Pacific for their livelihood are 
on the brink.''
         uniting salmon stakeholders around potential solutions
    The salmon industry is obviously deeply concerned with this outlook 
for the next 3 years. Our future has been put very much in doubt. We 
have examined the issues carefully and worked hard to develop plans and 
actions that can turn this situation around. In 2011 we pulled all the 
key people in the industry together and created the Golden Gate Salmon 
Association (GGSA) to work on recovery. We then created a salmon 
rebuilding task force to develop strategies and actions that can 
rebuild the runs. The three fish agencies, along with the Bureau of 
Reclamation and the California Department of Water Resources, joined us 
in an advisory capacity.

    GGSA now has 28 projects and a number of actions that the industry 
feels are very necessary to begin the turn around. We have shared them 
with some members of this committee and would hope you can support 
them. The following are some of our concerns and proposed actions:

    <bullet> We believe a great deal of money has been misdirected by 
            the U.S. Fish and Wildlife Service and Bureau of 
            Reclamation on spending the approximate $25 million a year 
            provided by the Central Valley Project Improvement Act 
            (CVPIA) Legislation of 1992. Many of the water contractors 
            that provide the annual $25 million agree with us. We 
            support the conclusions of the Listen to the River panel of 
            2008. This CVPIA program badly needs restructuring with a 
            better management and better investment targets. There is 
            an effort under way to do this and we urge Congress to help 
            see that the CVPIA restructure is successful.

    <bullet> In 2009, the National Marine Fisheries Service (NMFS) 
            issued new biological opinions to make important changes to 
            avoid extinctions. Several of these are languishing with 
            little or no action. Some of them would be very helpful in 
            arresting the declines. We urge more NMFS action.

    <bullet> In recent years the annual water delivery plans of the 
            Bureau of Reclamation and State Water Board have done 
            damage to the winter and fall-run juveniles in the upper 
            Sacramento River. These plans need to be better to avoid 
            these damages. The agencies have admitted that to prevent 
            additional damage to salmon, they must be more protective 
            in 2016. With the loss of two out of three cohorts of 
            endangered wild winter-run salmon (2014 and 2015) it is 
            critical that we develop cold water pool resources in the 
            winter and spring and then protect them to support the 
            temperature management needed later in the year.

    <bullet> There have been a number of Federal legislative proposals 
            that one way or another would overturn the current 
            biological opinions in the Delta. Maintaining those 
            biological opinions intact is critical to avoiding the 
            complete loss of the salmon. In 2009, when the opinions 
            were first put in place several water contractors filed 
            lawsuits in an effort to overturn them. After 2 years of 
            conflicting science testimony, the court upheld the BOs. It 
            also then ordered the litigating water contractors and NGOs 
            to form a committee to study and collaborate on the science 
            until they agreed. That committee was formed and has made 
            progress on reaching agreements. Where there are science 
            disagreements, it continues to sponsor science studies to 
            fill the gaps. I sit on that committee representing the 
            salmon industry.

    <bullet> The 28 salmon rebuilding projects developed by the GGSA 
            task force spell out engineering changes that will result 
            in more ocean salmon abundance. They do this by proposing 
            physical changes that improve juvenile survival, add 
            spawning and rearing area and reduce predation. Many of 
            these projects have no impact on water deliveries and are 
            supported by the contractors. We will furnish the entire 
            list to the committee and urge your support. Some of the 
            highlights are:

          --  The plumbing from the Oroville Dam on the Feather River 
        to the Thermalito Afterbay needs changing so that cold water 
        can flow to the 20 miles below the Thermalito outlet. This can 
        be a prime fall-run spawning area but its current temperature 
        is lethal to eggs. DWR, water users and others agreed in 2006 
        that this retrofit was needed, but it has made little or no 
        progress over the past decade.

          --  In the upper Sacramento River, there are very few places 
        where the newly hatched fry can hide from predators and grow 
        until they are strong enough to migrate downstream. The 
        predator losses are very high. More side channel rearing areas 
        are needed where these fish can hide and feed and grow. 
        Floodplain restoration in the Yolo and Sutter bypasses also 
        could significantly improve fitness and survival.

          --  In 2009, the National Marine Fisheries Service issued new 
        biological opinions for the Delta pumps and the pump salvage 
        system. Millions of out migrating juveniles are lost at these 
        operations. The biological opinions call for major improvements 
        here but they have never been enforced. NMFS needs to be more 
        aggressive.

          --  In low water years, the upper Sacramento River is running 
        very slow. The newly hatched salmon fry are not strong enough 
        to swim and migrate down the river on their own. A high 
        percentage of them are lost to predators. Pulse flows from the 
        Shasta and Keswick reservoirs are needed to push the juvenile 
        fish down the river to safer areas.

    <bullet> Several of the water contractors agree with our concerns 
            and some are already helping bring some of the projects 
            about. In the upper Sacramento River, a former salmon 
            spawning area called Painter's Riffle was identified by 
            GGSA as a potential spawning area but it was blocked by a 
            high gravel barrier. The Glenn-Colusa Irrigation District 
            (GCID) and Mr. Thad Bettner who is the General Manager of 
            the District stepped forward and agreed to fund the 
            project, offering their equipment and manpower at no charge 
            to clear the barrier. GCID completed the project in 2014 
            and in the fall of 2015 the salmon successfully used it. 
            Over a million new salmon fry are about now emerging from 
            the area and beginning their migration. Mr. Bettner is 
            present here today as a witness. We very much appreciate 
            his help.

    In the spring of 2015, a number of us from the fishing industry met 
with Chairman Hastings to discuss fishery issues in the different 
states. As the meeting progressed, I brought up the problems of the 
California salmon industry and asked for his help. Following his strong 
words about the salmon mess in California, we discussed some ideas that 
might be in the interest to all concerned. The Chairman asked that we 
send our ideas, which we did and continue to develop.
                               conclusion
    In summary, it is very clear the salmon industry has a very 
difficult future in 2016, 2017 and 2018. These may be the worst years 
ever. If the conditions continue to get worse, every water user in this 
room and many more will suffer. If we get busy on the things the salmon 
need, we can keep that from happening. What do they need? They need 
adequate flows and temperature protections, as well as ambitious 
habitat restoration actions and they will recover.
    We hope the committee agrees that these actions are in everyone's 
interest. We are asking for the committee's support wherever you can 
provide it and we stand ready to work with you and lend our resources 
and expertise as needed.
    Thank you for the opportunity to provide testimony today. I 
appreciate the subcommittee's time and attention to these important 
issues. I would be happy to answer any questions.

                                 ______
                                 

    Dr. Fleming. The Chair now recognizes Mr. Murillo.

  STATEMENT OF DAVID MURILLO, REGIONAL DIRECTOR, MID-PACIFIC 
REGION, BUREAU OF RECLAMATION, U.S. DEPARTMENT OF THE INTERIOR, 
WASHINGTON, DC, ACCOMPANIED BY REN LOHOEFENER, DIRECTOR OF THE 
PACIFIC SOUTHWEST REGION OF THE U.S. FISH AND WILDLIFE SERVICE 
                   IN SACRAMENTO, CALIFORNIA

    Mr. Murillo. Thank you, Chairman, Ranking Member Huffman, 
and members of the subcommittee. My name is David Murillo, 
Regional Director of the Mid-Pacific Region of the Bureau of 
Reclamation. With me is Ren Lohoefener, Regional Director of 
the U.S. Fish and Wildlife Services, Pacific Southwest Region. 
We are pleased to appear today to discuss the current El Nino 
weather cycle and actions we are taking, together with the 
state of California, to deliver water and address persistent 
drought. My full written testimony has been submitted for the 
record.
    For the past 4 years, we have seen reduced snowpack, 
reduced precipitation, significant groundwater withdrawals in 
much of the West, and in California, in particular. In the face 
of these conditions, carryover reservoir has been severely 
drawn down. And as we begin water year 2016, the Central Valley 
Project's carryover storage from 2015 into 2016 was 2.9 million 
acre-feet, which was 24 percent of capacity and 47 percent of 
the 15-year average for that date.
    As of this time last month, storage in major CVP reservoirs 
was 963,000 acre-feet lower than the same time last year. These 
conditions have taken their toll on water users, the 
environment, the economy, and the communities across the state. 
In these situations, innovative local agreements, adaptive 
management, and sheer resilience have been essential to the 
very survival of many farms and small communities.
    The Department understands the urgency of this El Nino 
cycle. We appreciate the chance to discuss these efforts and to 
continue a dialogue with this subcommittee on how we can best 
meet the needs of the water users, environment, and larger 
communities we all serve.
    Reclamation, the California Department of Water Resources, 
California Department of Fish and Wildlife, State Water 
Resources Control Board, National Marine Fisheries Service, 
and, of course, U.S. Fish and Wildlife Service, have 
coordinated CVP and State Project Operations at the highest 
level possible. This has enabled the State Board to support 
several joint Reclamation and Department of Water Resources 
(DWR) requests for modifications to requirements under State 
Water Right Decision 1641. Those actions have borne fruit with 
the conservation of approximately 880,000 acre-feet that 
otherwise would not have been conserved, if not for the jointly 
filed petition approved by the State Board.
    As the subcommittee is aware, water delivery for farms and 
cities is not the only demand on operations of the CVP, or the 
State Water Project, for that matter. The CVP is authorized to 
serve multiple purposes, and it provides significant benefits 
for flood control, recreation, water quality, and power 
generation every year. Compliance with state water rights and 
environmental laws are, obviously, significant 
responsibilities, governing the operations of the CVP, along 
with the water delivery contracts in place with over 200 water 
user organizations in California.
    It is true that the state and Federal facilities in the 
Delta have not operated at maximum capacity during these 
periods of elevated El Nino precipitation and runoff. The Bay-
Delta is an estuary that is home to its own in-Delta farming 
community, many towns where water quality can be impacted by 
operations of the pumps, as well as dozens of threatened and 
endangered species.
    While it is easy to attribute the state's water supply 
cutbacks entirely to the environmental regulations, it has been 
drought, extreme decline in annual precipitation, and snowpack 
in California since 2012, far more than any other factor that 
has constrained the ability of the state and Federal projects 
to deliver full allocations during these past 4 years.
    So far during 2016, Reclamation's El Nino operations have 
been adaptive and strategic. To the extent that Reclamation and 
the state can maximize export pumping, particularly during 
surges in inflow to the Delta, we have done so and will 
continue to do so.
    But we have also proactively reduced export pumping on some 
occasions to protect listed species, such as the Delta smelt, 
and we will continue to do so when warranted, because we 
strongly believe that not doing so would necessitate far more 
restrictive export levels days or weeks down the road. We want 
to manage expectations, even as we keep releases from 
Reclamation major storage facilities conservative in 
recognition of the fact that the preceding years of below-
normal to critical dry hydrology have left carryover storage 
levels far below where we like to see them.
    My written statement describes multi-faceted actions that 
the Department is taking to assist western communities impacted 
by the drought. If sustained, we believe our efforts can build 
long-term drought resiliency, even accounting for what the El 
Nino may or may not bring in this and future years.
    That concludes my written statement. In closing, Ren and I 
thank the subcommittee for its attention to this issue, and the 
working relationship with all the parties represented here 
today.
    We would be pleased to answer any questions at the 
appropriate time. Thank you.
    [The prepared statement of Mr. Murillo follows:]
  Prepared Statement of David Murillo, Regional Director, Mid-Pacific 
     Region, Bureau of Reclamation, U.S. Department of the Interior
    Chairman Fleming, Ranking Member Huffman and members of the 
subcommittee, I am David Murillo, Regional Director in the Mid-Pacific 
Region of the Bureau of Reclamation (Reclamation). I am pleased to 
appear before the subcommittee today to discuss activities underway in 
California to adapt to the challenges and opportunities associated with 
the current El Nino weather cycle, and actions the Department of the 
Interior (Department) is taking together with the state of California 
and our partner agencies to mitigate the effects of persistent drought.
    The past 4 years have been characterized by severely reduced 
snowpack, reduced precipitation and significant groundwater withdrawals 
in much of the West and in California in particular. Water Year (WY) 
2015 was the 8th of 9 years with below-average runoff. Beginning with 
2012, the last 4 years have been hydrologically classified as below 
normal (2012), dry (2013), and critically dry (2014 and 2015).\1\ Under 
average conditions, a major source of California's water for cities and 
farms is runoff from snowpack in the Sierra Nevada and Cascade 
mountains (about one-third), and on April 1, 2015, California's 
Department of Water Resources measured statewide water content of 
Sierra snowpack at 5 percent of average for that date. These levels 
were lower than any year on record going back to 1950.\2\ Moreover, 
California's 2014 and 2015 water years were also the warmest on 
record,\3\ exacerbating the effects of the current drought.
---------------------------------------------------------------------------
    \1\ http://cdec.water.ca.gov/cgi-progs/iodir/WSIHIST.
    \2\ www.water.ca.gov/news/newsreleases/2015/040115snowsurvey.pdf.
    \3\ www.ncdc.noaa.gov/temp-and-precip/climatological-rankings/
index.php?periods%5B%5D=12& 
parameter=tavg&state=4&div=0&month=9&year=2014#ranks-form.
---------------------------------------------------------------------------
    In the face of these conditions, carryover reservoir storage has 
been severely drawn down during this drought, and as we began water 
year 2016 the Central Valley Project's (CVP) reservoir carryover 
storage from WY 2015 into WY 2016 (October 1, 2015) was 2.9 million 
acre-feet, which was 24 percent of capacity and 47 percent of the 15-
year average for that date. As of January 19, 2016, storage in major 
CVP reservoirs was 963,000 acre-feet lower than the same time last 
year. These conditions have taken their toll on water users, the 
environment, the economy and communities across the state. And, against 
the backdrop of that complex water and precipitation picture, 
innovative local agreements, adaptive management, and resilience have 
been essential to the survival of many farms and small communities.
    The El Nino-Southern Oscillation (ENSO) is characterized by year-
to-year fluctuations in sea surface temperatures in the equatorial 
Pacific Ocean. The National Oceanic and Atmospheric Administration's 
Climate Prediction Center classifies present ENSO conditions as a 
strong El Nino, one which is expected to peak during the winter of 
2015-16 with a transition to ENSO-neutral conditions expected during 
the late spring or early summer of 2016.
    The Department understands the urgency this subcommittee, and 
numerous stakeholders in California, associate with questions about how 
agencies will operate during the current El Nino cycle, and whether the 
decisions made during this winter will meaningfully change the water 
supply picture in 2016 and beyond. We appreciate the chance to discuss 
these efforts, and we're glad to have an opportunity to continue a 
dialog with the members of this subcommittee on how we can best address 
the needs of the water users, environment and larger community we all 
serve.
    Since December 2013, state and Federal agencies that supply water, 
regulate water quality, and protect California's fish and wildlife have 
worked closely together to manage through the drought and problem-solve 
with the larger stakeholder community. Reclamation, the California 
Department of Water Resources (DWR), California Department of Fish and 
Wildlife (CDFW), State Water Resource Control Board (SWRCB), U.S. Fish 
and Wildlife Service (USFWS), and National Marine Fisheries Service 
(NMFS), (collectively, the state and Federal Agencies) have coordinated 
CVP and State Water Project (SWP) operations at the highest level 
possible, to manage water resources through both forward-thinking and 
real-time efforts. This cooperative environment has allowed the state 
and Federal Agencies to collectively provide the necessary information 
to the SWRCB to support evaluation of several joint Reclamation and DWR 
requests for modifications to operational standards required under 
State Water Right Decision 1641 (D-1641). Those collaborative actions 
have borne fruit with the conservation of approximately 880,000 acre-
feet that would not have been conserved but for the jointly filed 
Temporary Urgency Change Petitions (TUCPs) approved by the SWRCB.
    Last month the state and Federal Agencies prepared and submitted a 
2016 Drought Contingency Plan \4\ (DCP) to provide a framework of more 
potential operational actions that may be requested from the regulatory 
authority of the SWRCB this year. The actions summarized in the DCP may 
be necessary even if California continues to experience the current 
wetter-than-average hydrology. As of this writing, the DCP provides the 
best big-picture summary of the objectives that will guide the state 
and Federal Agencies in 2016.
---------------------------------------------------------------------------
    \4\ www.water.ca.gov/waterconditions/docs/2016-
DroughtContingencyPlan-CVP-SWPOperations-Feb-Nov_1.19.16-FINAL.pdf.
---------------------------------------------------------------------------
    As the subcommittee is aware, water delivery for farms and cities 
is not the only imperative at play in the operation of the CVP, or the 
state's water project for that matter. The CVP and its reservoirs are 
authorized to serve multiple purposes, and they provide significant 
benefits for flood control, recreation, water quality and power 
generation every year, in all types of hydrology. In 1992 Congress 
specifically amended the CVP's overlying authorization (dating to 
1937), with the statutory directive that CVP project purposes include 
the ``mitigation, protection, and restoration of fish and wildlife'' 
and ``fish and wildlife enhancement.'' Similarly, California State Fish 
and Game Code Section 5937 requires releases below dams ``to keep in 
good condition any fish that may be planted or exist below the dam.'' 
Compliance with state water law and the major environmental statutes 
such as the Endangered Species Act and Clean Water Act are obviously 
significant responsibilities governing the operation of the CVP along 
with the many water delivery contracts in place with more than 200 
water user organizations in California.
    It is true that state and Federal export facilities in the Delta 
have not operated at maximum capacity during these periods of elevated 
El Nino precipitation and runoff. The Bay-Delta is an estuary that is 
home to its own in-Delta farming community, many towns where water 
quality could be or is acutely impacted by operation of the pumps, as 
well as dozens of threatened and endangered species.\5\<SUP>,</SUP> \6\ 
The Delta serves these roles in addition to the water conveyance 
function it serves in providing millions of acre-feet of water to users 
south of the Delta every year. While some have argued the state's water 
supply cutbacks are entirely due to environmental regulations, it has 
been drought--the extreme declines in annual precipitation and snowpack 
in California since 2012--far more than any other factor, that has 
constrained the ability of the state and Federal projects to deliver 
full allocations of water during these years.
---------------------------------------------------------------------------
    \5\ www.fws.gov/sfbaydelta/es/species_info.cfm.
    \6\ www.westcoast.fisheries.noaa.gov/protected_species/
salmon_steelhead/salmon_and_steelhead _listings/
salmon_and_steelhead_listings.html.
---------------------------------------------------------------------------
    So far during 2016, Reclamation's operations during the El Nino 
pattern can be characterized as adaptive and strategic. Many variables 
such as temperature, salinity, turbidity, tidal action, inflow, outflow 
requirements, storage levels and the location of threatened and 
endangered fish species or their habitat have required us to adapt to 
determine what level of exports can be supported at the pumps. To the 
extent that Reclamation and the state can opportunistically maximize 
export pumping, particularly during surges in inflow to the Delta, we 
have done so and will continue to do so. But we've also proactively 
reduced export pumping on several occasions to protect listed species 
such as the Delta smelt, and we will continue to do so when warranted, 
because we strongly believe that not doing so would necessitate far 
more restrictive export levels days or weeks down the road. Federal and 
state agencies are working to avoid the potential extirpation of 
species like winter-, spring- and fall-run Chinook salmon, Central 
Valley steelhead, and Delta smelt, which has been found to be in danger 
of extinction throughout its range.\7\
---------------------------------------------------------------------------
    \7\ www.fws.gov/sfbaydelta/species/delta_smelt.cfm.
---------------------------------------------------------------------------
    Through the implementation of a series of Federal actions and 
investments laid out in the Interim Federal Action Plan, we and our 
resource agency partners are taking affirmative steps to address the 
role of stressors like predation by invasive species, further 
complicating recovery of threatened and endangered species. In fact, in 
his testimony last October on H.R. 2898 and S. 1984, Deputy Secretary 
Mike Connor stated ``the Department strongly supports well-designed 
collaborative scientific research into predation.'' These factors, and 
4 years of drought, will not be remedied with 1 year's above-average El 
Nino hydrology. And so we want to manage expectations, as we keep 
releases from Reclamation's major storage facilities conservative in 
recognition of the fact that the preceding years of below normal to 
critically dry hydrology have left carryover storage levels far below 
average.
    As stated by Deputy Secretary Connor before the Senate Energy and 
Natural Resources Committee this past October, the Department is taking 
a multi-faceted approach and marshalling every resource at its disposal 
to assist western communities impacted by drought. Through the 
WaterSMART Program, hundreds of thousands of acre-feet are being 
conserved every year that would otherwise be lost. In June of last 
year, Reclamation announced investments of more than $24 million in 
grants for 50 water and energy efficiency projects in 12 western 
states, more than $23 million for seven water reclamation and reuse 
projects in California, and nearly $2 million for seven water 
reclamation and reuse feasibility studies in California and Texas. On 
February 8 we announced the allocation of $166 million in additional FY 
2016 funding, $100 million of it directed at western drought response. 
And in the coming months, we will announce funding awards for dozens of 
additional WaterSMART awards, getting the 2016 funds out to the 
districts that will put them to work on the ground.
    While these and many other measures have not and can never fully 
alleviate the drought's impacts, we've proven that we have the capacity 
to improve overall water management by building on the work of creative 
local partners. If sustained, the Department believes we can build 
long-term drought resiliency, even accounting for what El Nino may or 
may not yield in this and future years.
    As we move through the remainder of this El Nino year, Reclamation 
will remain consistent in developing and adjusting our operations plan 
in conjunction with the state, requesting as much flexibility as 
possible while at the same time protecting the fish species. We look 
forward to engaging in discussions with water users on possible 
operational scenarios to address the needs of fisheries at the same 
time improving project yield.
    Finally, while we understand that today's hearing is focused on 
near-term operational issues during the current El Nino cycle, I want 
to reiterate the Department's commitment to working with the state of 
California on long-term goals of improving California's water supply 
reliability, and protecting and restoring the Bay-Delta environment.
    That concludes my written statement. In closing, I thank the 
committee for its attention to this issue, and for fair consideration 
of all we are doing to operate the state and Federal projects in 
compliance with the law for the benefit of all Californians and the 
environment. Reclamation values its working relationship with all the 
parties represented here today. I would be pleased to answer questions 
at the appropriate time.

                                 ______
                                 

    Dr. Fleming. Thank you, Mr. Murillo.
    The Chair now recognizes Mr. Birmingham for 5 minutes.

    STATEMENT OF THOMAS BIRMINGHAM, GENERAL MANAGER/GENERAL 
     COUNSEL, WESTLANDS WATER DISTRICT, FRESNO, CALIFORNIA

    Mr. Birmingham. Thank you, Mr. Chairman, and members of the 
subcommittee. I want to express my appreciation for being 
invited to testify before the subcommittee on the 2016 
California water supply outlook during the El Nino and the 3 
years of restricted water deliveries.
    As the subcommittee is aware, there has been a dramatic 
improvement in the hydrologic conditions in California. We have 
seen significant increases in storage and significant increases 
in Delta inflow and outflow. And, based on the February 1 snow 
survey conducted by the California Department of Water 
Resources, the Northern Sierra snowpack was at 120 percent of 
the long-term average for that date, and the rainfall in the 
three regions tracked by the Department of Water Resources was 
123 percent of the historical average for that date.
    The dramatic improvements in the hydrology are depicted in 
two exhibits that I submitted to the committee. Exhibit 1 is a 
graph of the storage in Folsom Lake, the reservoir that Mr. 
Huffman referred to in his comments. And Exhibit 2 is a graph 
depicting Delta inflow during this year.
    But, unfortunately, despite the improved hydrologic 
conditions, those conditions will not equate to an improved 
water supply for south-of-Delta Central Valley Project 
agricultural water service contractors. For the third year in a 
row, those contractors will receive a zero allocation.
    For the third year in a row, the Bureau of Reclamation is 
likely to have to make releases from Millerton Reservoir on the 
San Joaquin River to the exchange contractors to meet the 
United States' obligation to the most senior water right 
holders on the San Joaquin River. And prior to 2014, that had 
never happened in the history of this project. There cannot be 
any debate that these impacts, as Mr. Murillo said, are as a 
result of drought. But there cannot be any reasonable debate 
that the impacts have also been a consequence of the 
implementation of the Endangered Species Act and biological 
opinions.
    During his comments, Mr. Huffman made some remarks with 
which I completely agree. He talked about the necessity of 
looking at the facts. In fact, I remember very distinctly Mr. 
Huffman making a comment in a Floor debate to the effect that 
facts are stubborn things, and the facts are that, over the 
last 2 years, that 3-inch fish has taken exactly zero water 
from those who depend on water diverted out of the Delta 
system. We need to have an honest debate.
    I will be the first to acknowledge that in 2014 it was so 
dry that the biological opinions had very little effect on 
water supply. But to make a statement that in 2015 there was no 
effect, that is absolutely false. I could very easily discover 
this morning, looking over the change orders, a February 22, 
2015 change order directing that the pumping at the Jones 
Pumping Plant be reduced to 850 cubic feet per second, and the 
reason was Delta smelt concerns. We absolutely have to have an 
honest debate about what is causing these impacts.
    Mr. Huffman talked about things over which we should be 
outraged, and he is absolutely right. What is going on right 
now at Folsom is outrageous. But where is the outrage that 
there are going to be communities in the San Joaquin Valley 
that have no water?
    I have watched the press talk about what has happened in 
Flint, Michigan, and the outrage over the governmental action 
in Flint, Michigan that put the population at Flint at risk. 
Where is the outrage that it is governmental policies that have 
created zero water supplies for communities in the San Joaquin 
Valley, disadvantaged communities that have no resources to 
respond to zero water supplies, as Mr. Costa said, that are a 
result of government action?
    In 2015, the San Luis and Delta-Mendota Water Authority, 
which is a joint-powers entity created under California State 
Law that actually operates the Delta facilities of the Central 
Valley Project, estimated that the biological opinions cost 
470,000 acre-feet of water. In January and February of this 
year, despite the improved hydrology and increased inflow, the 
Delta smelt biological opinion has cost 500,000 acre-feet of 
water. That is enough to irrigate 200,000 acres of land and to 
produce tens of thousands of jobs.
    No one wants to see these species go extinct. In fact, one 
of the things we should be outraged about is the fact that over 
the last 20 years we have dedicated millions of acre-feet of 
water to the protection of these species, and the species have 
continued to decline. Today, the Delta smelt index is zero. The 
fish are gone. We should be outraged that nothing is being done 
to actually protect these fish.
    [The prepared statement of Mr. Birmingham follows:]
  Prepared Statement of Thomas Birmingham, General Manager, Westlands 
                             Water District
    Mr. Chairman and members of the subcommittee, my name is Thomas W. 
Birmingham, and I am the General Manager of Westlands Water District 
(``Westlands'' or ``District''). Thank you for the opportunity to 
appear before you today to testify on one of the most, perhaps the 
most, important resource issue facing the state of California, its 
broken water supply infrastructure.
    Westlands is a California water district that serves irrigation 
water to an area of approximately 600,000 acres on the west side of the 
San Joaquin Valley in Fresno and Kings counties. The District averages 
15 miles in width and is 70 miles long. Historically, the demand for 
irrigation water in Westlands was 1.4 million acre-feet per year, and 
that demand has been satisfied through the use of groundwater, water 
made available to the District from the Central Valley Project under 
contracts with the United States for the delivery of 1.19 million acre-
feet, and annual transfers of water from other water agencies.
    Westlands is one of the most fertile, productive and diversified 
farming regions in the Nation. Rich soil, a good climate, and 
innovative farm management have helped make the area served by 
Westlands one of the most productive farming areas in the San Joaquin 
Valley and the Nation. Westlands farmers produce over 50 commercial 
fiber and food crops sold for the fresh, dry, and canned or frozen food 
markets; domestic and export. These crops have a value in excess of $1 
billion.
    In April 2011, I testified at a field hearing of the subcommittee 
in Fresno, California. At the time I observed that it was ironic that 
the subcommittee was in Fresno to hear about drought and the impact of 
drought on jobs at a time when California's reservoirs were full and 
rivers, streams, and flood control by-passes were running high. In the 
years subsequent to 2011, hydrologic conditions in California were 
dramatically different; in the 4 years after 2011, California 
experienced a prolonged drought. However, the wet hydrologic conditions 
in 2011 and the 4 subsequent years of drought were not an anomaly. 
Floods and drought, the continual alteration between these two 
extremes, is part of the natural cycle of life in California. And 
California's water supply systems were designed to help the state 
withstand the impacts of extended drought.
    Indeed, the ``firm yield'' of the Central Valley Project was 
historically defined as the measure of the availability of water to 
meet authorized purposes of the Central Valley Project based on the 
assumed operations of the Project throughout the simulation of the 
critically dry 1928-34 period, the most severe drought in California's 
recorded history. Bureau of Reclamation (``Reclamation'') decisions 
concerning the quantities of water that would be made available under 
water service contracts were based on this measure.
    Prior to the enactment and implementation of the Central Valley 
Project Improvement Act and the application of the Endangered Species 
Act to the operations of the Central Valley Project, Reclamation's 
estimate of the availability of water to meet authorized project 
purposes during extended drought was reasonably accurate. This is 
reflected by allocations to south-of-Delta Central Valley agricultural 
water service contractors during the 1987-1992 drought. During the 6 
years of that extended drought allocations were 100 percent, 100 
percent; 100 percent; 50 percent, 25 percent, and 25 percent.
    Allocations to south-of-Delta Central Valley agricultural water 
service contractors during the 2012-2015 drought demonstrate the degree 
to which restrictions imposed on operations of the Project have reduced 
its deliver capability. However, to put the 2012-2015 drought into 
perspective, it must be noted that 2010 and 2011, the two hydrologic 
years preceding this most recent drought, were above average and 
significantly wet, respectively. Notwithstanding these wet conditions 
in 2010 and 2011, the allocation to south-of-Delta Central Valley 
agricultural water service contractors in 2012, the first year of 
drought, was only 40 percent. In 2013, 2014, and 2015 the allocations 
were 20 percent, 0 percent, and 0 percent, respectively. Moreover, in 
2014 and 2015, north-of-Delta agricultural water service contractors 
and Friant Division Class I contractors also received zero allocations. 
For the first time in the history of the Central Valley Project, 
releases had to be made from Millerton Reservoir on the San Joaquin 
River to meet the United States' obligation to the San Joaquin River 
Exchange Contractors, and Reclamation was unable to meet its core 
obligations to Sacramento River settlement contractors and refuges. 
Stated differently, in the third year of a drought, a drought which was 
not significantly more severe than prior extended droughts, the Central 
Valley Project was incapable of meetings even its most basic 
obligations.
    As anticipated, 2016 is an El Nino year and the hydrologic 
conditions have improved dramatically. According to the California 
Department of Water Resources' February 1, 2016 manual snow survey, 
rainfall and the Sierra Nevada snowpack's water content are both 
markedly improved this water year, and storage in the state's major 
reservoirs also has increased significantly since January 1. Rainfall 
in the three regions (northern Sierra Nevada, central Sierra Nevada, 
and southern Sierra Nevada) tracked by DWR was 123 percent of the 
historical average between October 1 and January 31. In addition, the 
water content of the northern Sierra Nevada snowpack was 120 percent of 
average for the date.
    The dramatic improvement of storage in Folsom Reservoir, a Central 
Valley Project reservoir that has received widespread media attention 
during the drought, is shown in the graph below prepared by the 
California Department of Water Resources (Exhibit 1). In fact, storage 
conditions have improved to the point that on or about February 10, 
2016, Reclamation significantly increased releases from Folsom Dam to 
comply with flood control criteria established for the reservoir.

                               Exhibit 1
                               
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 


    However, despite improved hydrologic conditions, the outlook 
for water supplies from the Central Valley Project has not 
significantly improved. Westlands currently forecasts that the initial 
allocation for south-of-Delta Central Valley Project agricultural water 
service contractor will, for the third consecutive year, be zero, and 
the allocation is likely to remain at zero. In addition, I am informed 
that Reclamation has informed the San Joaquin River Exchange 
Contractors and Friant Division contractors that it is likely releases 
from Millerton Reservoir will, for the third consecutive year, have to 
be made to satisfy the United States' obligation to the Exchange 
Contractors. And despite flood control releases having to be made from 
Folsom Dam, pumping in the Delta has been reduced.
    Reclamation's current inability to make water available to large 
areas of the Central Valley Project despite improved hydrology is a 
function primarily of constrains imposed on Project operations under 
the 2008 biological opinion for the protection of Delta smelt. This 
fact is illustrated dramatically by the graph below (Exhibit 2), which 
depicts Delta inflow and rates of pumping at the Central Valley Project 
and State Water Project southern Delta pumping plants from December 1, 
2015, through February 7, 2016. The red curve on Exhibit 2 indicates 
the rates of pumping permitted under Water Right Decision 1641, the 
California State Water Right Decision that established operational 
criteria intended to protect fish and wildlife resources in the Delta. 
As depicted in Exhibit 2, in early January 2016, when the El Nino rains 
began to produce increased inflow into the Delta, rates of project 
pumping were decreased, rather than increased as permitted under D-
1641. The decreased rates of project pumping were implemented to comply 
with the reasonable and prudent alternative established by the Delta 
smelt biological opinion, and between January 5 and February 7, the 
Central Valley Project and the California State Water Project lost a 
combined 397,000 acre-feet.

                               Exhibit 2
                               
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 


    Losses of water resulting from the Delta smelt biological 
opinion have continued to accumulate, and it is presently estimated 
that the losses exceed 500,000 acre-feet. The irony, some might say 
absurdity, of Central Valley Project operations in this El Nino year is 
demonstrated by a comparison of cumulative Delta pumping by the Central 
Valley Project for the period from October 1 through February 7 for the 
2015 and the 2016 water years. Despite dramatically improved hydrologic 
conditions in 2016, the Central Valley Project has pumped significantly 
less water this year, more than 200,000 acre-feet less, compared to the 
same period of the 2015 water year.
    I hope my testimony has made it clear that there is a complete 
disconnect between hydrology and Central Valley Project water supply 
under the 2008 Delta smelt biological opinion. Since the beginning of 
December 2015, two Delta smelt have been observed at the fish recovery 
facilities operated at the Central Valley Project and California State 
Water Project pumping plants. (These two observed fish are expanded to 
eight for purposes of the incidental take level established under the 
Delta smelt biological opinion.) But for reasons beyond explanation by 
me, Reclamation and the Fish and Wildlife Service have adopted very 
conservative decisions concerning compliance with the biological 
opinion's reasonable and prudent alternative.
    It is beyond reasonable dispute that the continued, prolonged water 
supply shortages being suffered in the San Joaquin Valley are the 
result of policy choices made by the Federal Government, not by 
hydrologic conditions. As a consequence, it is unlikely that the 
current El Nino conditions will produce any water supply benefits.

    I would welcome any questions from members of the subcommittee.

                                 ______
                                 

    Dr. Fleming. Thank you, Mr. Birmingham, and thank you, 
witnesses, for your testimony. At this point we would like to 
begin our questions. To allow all Members to participate and 
ensure we can hear from all the witnesses today, Members are 
limited to 5 minutes for their questions. I now yield myself 5 
minutes for questions.
    Back to you, Mr. Birmingham. Some have opposed legislation 
because they say Federal agencies have discretion and, 
therefore, Congress should not meddle in this discretion. Are 
the agencies using that discretion?
    Mr. Birmingham. Well, the agencies, Mr. Chairman, are 
exercising their discretion, but they are not exercising it in 
a way to maximize water supplies. To the contrary, they are 
exercising the discretion in a way to operate the project in a 
very conservative way. By that I mean they are doing everything 
that they can to avoid the take of listed fish at the two 
pumping plants in the south Delta.
    So, discretion is being exercised, but it is not being 
exercised in a way to make water available for people.
    Dr. Fleming. OK, thank you.
    Now, Mr. Barbre and Mr. Bettner, is legislation necessary 
to help bring Federal fixes to California, since the Federal 
Government created some of these problems?
    Mr. Bettner. In my oral and written testimonies, we have 
some specific recommendations we believe that can be done now 
that are not controversial, like other things: streamline 
permitting for projects, particularly for environmental 
restoration projects, would be helpful. We have included a 
discussion on new storage--I think, again, looking at new ways 
to permit storage. Strategic storage that would benefit the 
environment would be another way.
    These are things that can be done now. They are not 
controversial, and will have immediate impacts on improving the 
project, the operations, and the environment.
    Dr. Fleming. Mr. Barbre?
    Mr. Barbre. I would concur with that. I think the Federal 
Government could do quite a bit for local projects and doing a 
one-stop period of time to challenge everything.
    For instance, trying to build a de-sal plant in Southern 
California, it is probably $75 million in up-front studies in 
permitting and 35 different permits you have to obtain between 
the state and Federal system. It is a tremendous burden on 
local entities, because every step of the way you can be 
challenged under a whole host of state and Federal statutes. So 
something like that, to make it easier to develop some of these 
projects, would be significant assistance.
    Dr. Fleming. OK. Again, to Mr. Barbre, how did Southern 
California prepare for the future following the 1977 drought?
    Mr. Barbre. Yes. Great question. We did what most people 
have done, historically. We built up our storage, we developed 
new technologies, we have developed recycling. We have de-sal 
plants. We just had a de-sal plant that came on in Carlsbad. We 
have one plant in Huntington Beach, one in Dana Point.
    We spent a tremendous amount of money building storage. We 
built Diamond Valley Lake, which was $2 billion. We built a 
tunnel through the mountains called the Inland Feeder, which 
gives us more operational flexibility. We spent over $2 billion 
in upgrading our various treatment plants, whether it is 
getting ready for the next earthquake, whether it is a 
regulatory piece, things like that, and we also did a lot in 
water transfers.
    One of the challenges in water transfers, today, for us in 
the state of California, there are a lot of willing sellers, 
but you cannot move it south through the Delta. In the early 
1970s, and I put this in my written testimony, the Delta 
Environmental Advisory Committee, everybody agreed--the 
fisheries, the environmental community, labor, north/south of 
the Delta folks, farmers--they all agreed you need to do 
something to fix the Delta, you need to have some conveyance 
around the Delta. Otherwise, you are going to force the Delta 
to become a conveyance facility, which will destroy the Delta. 
That is what we are witnessing today, because we did not build 
that.
    Dr. Fleming. Right. And then back to you, Mr. Birmingham. 
What did the Federal Government do after the 1977 drought in 
California?
    Mr. Birmingham. Exactly the opposite of what was done in 
Southern California. Southern California reacted to create 
flexibility. The Federal Government, since 1977, has imposed 
layer upon layer upon layer of restrictions that have 
constrained the use of water resources in the state of 
California.
    It is ironic to me that I hear people talk about you cannot 
pass legislation because we need to respect state water rights. 
But in 1992, George Miller introduced and ultimately had it 
enacted, the Central Valley Project Improvement Act, a Federal 
statute that reallocated more than 1 million acre-feet of water 
from farmers to the environment. That was a Federal law. And 
what we are talking about today are Federal laws, the 
application of the Endangered Species Act, that are 
constraining the operation of these projects. That is a Federal 
law.
    Dr. Fleming. OK, thank you. The Chair recognizes Mr. 
Huffman. Yes, go ahead.
    Mr. Huffman. I think we are going to be sharing this 
microphone, Mr. Chairman.
    I think we need to all be very careful about the facts on a 
subject as potentially loaded as California water. That Central 
Valley Project Improvement Act did not affect any state water 
rights. In fact, it reallocated within the Federal water right 
of the Central Valley Project. There is no conflict between the 
CVPIA and the principle of respecting state water rights. It 
simply changed the way certain contractors, especially junior 
contractors like Westlands, within the CVP got their water. It 
changed Federal law, but not state water rights.
    Similarly, Mr. Birmingham, I am happy to be corrected if I 
get a fact wrong, but I try to be very careful. When you cite 
data from one water year to suggest that when I made a quote 
about a prior water year I was wrong, that is not being very 
careful. So I want to urge everyone to be careful and precise 
when we talk about this subject.
    Mr. Birmingham. Well, Mr. Huffman----
    Mr. Huffman. No, I listened carefully and politely while 
you misstated the facts, and so you get to listen carefully to 
my correction of them.
    Mr. Birmingham. Then I hope I have an opportunity to----
    Mr. Huffman. My friend from Orange County----
    Mr. Birmingham [continuing]. Correct the correction.
    Mr. Huffman. This is my time, Mr. Birmingham, you had your 
time.
    I am glad that my friend from Orange County brought up 1977 
and Marin County, and you are right, Marin County was bailed 
out by an emergency pipe across the Richmond Bridge with water 
from the Metropolitan Water--we are probably not grateful 
enough for what happened in 1977. But I believe I heard you say 
that after all the investments that Orange County did after 
that drought--which I am a big fan of, by the way, you have 
done terrific work down there, and put you in a good position 
for this current drought--that Marin County had to string a 
pipeline again in 2014. That is factually incorrect. You have 
some bad information there.
    In fact, Marin did essentially what Orange County did. 
After that 1977 drought, they invested in new storage, they 
invested in agreements with their neighbors to the north for 
imported water, and they invested heavily in water recycling 
and conservation. As a result, Marin County came through about 
as well as Orange County for this current drought. So, I wanted 
to point out that important clarification, again urging 
everyone to be careful as we talk about this issue.
    I want to ask you, Mr. Murillo, about hydrology. In your 
view, what is the primary factor driving low water supply 
allocations, hydrology or endangered species pumping 
restrictions?
    Mr. Murillo. Yes, I appreciate the question, Congressman. 
Right now, we cannot ignore the fact that we have had low 
hydrology the last 3 or 4 years. It is there. And that is what 
has impacted our carryover, and that is what has impacted our 
operations.
    In addition to that, we do have some biological opinions 
that we have to comply with. Those also affect the species. So, 
the hydrology is going to affect the yield, it is also going to 
affect how we operate to protect the species.
    Mr. Huffman. One other statement that we often hear is 
about zero water allocations. My colleague mentioned that the 
San Joaquin Valley has gotten zero allocation, is likely to get 
another zero allocation of surface water. I just want to 
clarify. The whole Valley has not gotten a zero allocation, or 
isn't getting one. That applies only to junior contractors of 
the CVP, right?
    Mr. Murillo. Yes, it does.
    Mr. Huffman. And only to their surface water supplies, as 
opposed to other supplies they may have?
    Mr. Murillo. Yes. Right now, the senior exchange 
contractors are going to get water, and so will the----
    Mr. Huffman. I am not trying to trivialize the very 
significant impact that has on junior contractors, it is very 
real. But the bigger picture is important, too.
    And tell us about senior water right holders. For example, 
right next door to Mr. Birmingham you have the San Joaquin 
Valley exchange contractors. Tell us about their allocations 
through the drought and for this coming year. What do you think 
they are likely to get?
    Mr. Murillo. Well, about a week or so ago we were believing 
that they would be able to get a full contract volume.
    Mr. Huffman. A hundred percent?
    Mr. Murillo. A hundred percent. But that has changed a 
little bit within the last year, because February was not an 
average precip month. So, it just depends on how we move 
forward, whether they are going to get a full allocation or 
not, along with the refuges.
    Mr. Huffman. OK. Often when we hear about pumping 
restrictions in the Delta, those restrictions are sometimes for 
water quality purposes that are required to maintain outflows 
to the whole system works, and so you are not pumping brackish 
or salt water at the Delta pumps.
    But sometimes these restrictions are conflated with 
Endangered Species Act pumping restrictions. Can you talk about 
the difference between the two, and tell us what has had a 
bigger impact on Delta pumping levels during this drought?
    Mr. Murillo. Yes. So, our pumping does get affected by the 
D-1641 state requirements, the water quality requirement, and 
then also the biological opinion. I think there are quite a few 
days throughout the year, throughout the last several years, 
that water quality has been the factor affecting our pumping at 
the Jones and State pump facilities.
    But, we have to push salinity out of the Delta, so the 
water goes out into the ocean. And then, with respect to the 
Delta smelt, we have to protect the Delta smelt. And that is 
influenced by the San Joaquin River reverse flows, but that 
will also affect our pumping.
    Mr. Huffman. Thank you, Mr. Chairman. I will have a few 
more for the next round, if we have one.
    Dr. Fleming. Thank you. The Chair recognizes Dr. Gosar.
    Dr. Gosar. Thank you very much.
    Mr. Barbre, you testified clearly that the status quo is 
not working for Orange County water users. Can Californians 
conserve their way out of this drought?
    Mr. Barbre. There is a false belief within the state of 
California that if you have grass in your yard or have a 
swimming pool, that is a cause of the drought. In fact, 
Metropolitan invested $400 million telling people to tear out 
their grass. We can conserve all we want, but it is not going 
to make a long-term difference. We still need storage. Storage 
is what has gotten us through this. And you know this all well, 
being from Arizona. Having that significant storage, and being 
able to ride it up and down, is incredibly helpful.
    So, probably the most important thing Southern California 
has done has been to develop their storage above ground, below 
ground.
    Dr. Gosar. I went last year to the Poseidon Water Carlsbad 
de-salinization plant. Oh my God, it took over 20 years to get 
that permitted. Jiminy Christmas.
    And you are exactly right, the Tale of Two States, Arizona 
versus California, for the most part. They are very different 
looking in infrastructures.
    But I want to reiterate for those that are watching. With 
recycling and water, can't we create more water without having 
to put more storage in place? People do not quite understand 
this.
    Mr. Barbre. Yes, and you need someplace to put it, because 
you are not always going to have constant flows of water usage. 
You need someplace to put it for those times when it is not 
needed.
    We have had people that have challenged us and said, ``Why 
don't you just walk away from the Bay-Delta? That is worth 2 
million acre-feet to us.'' Well, to replace that, whether it is 
in de-sal plants or whether it is in recycling, we would need a 
plant about every 3 miles from Ventura down to San Diego. I 
don't think people would want that, and it would be incredibly 
expensive, and it would not be nearly as reliable. We would 
have to completely replumb the system, because we use gravity, 
and we try to generate power as we let the water flow, and we 
would have to pump it all up into the hills again to let it 
flow back. So, it is just not as practical.
    It is part of the portfolio. We need 30,000-50,000 acre-
feet a year, just because of people moving to Southern 
California, because it is 75 degrees out there today. That is 
why people move there.
    Dr. Gosar. Wonderful. Mr. Birmingham, conservation last 
year reportedly saved 1 million acre-feet in California. Yet, 
you testified today that communities in your area lost 500,000 
acre-feet since January 1 to the ocean. What kind of message 
does that send to San Joaquin Valley?
    Mr. Birmingham. That nobody cares. Very simply, nobody 
cares. I mean, I appreciate Mr. Huffman's expressions of 
sympathy, and his characterization that we get zero because we 
are a junior contractor, but the reality is the Central Valley 
Project was designed so that it could deliver water during 
extended droughts, the most severe drought in the history of 
the state of California. And the amount of water that the 
Bureau of Reclamation contracted with, including the junior 
contractors like Westlands--and I am using his term; I would 
not characterize it that way--the amount that we contracted for 
was based on the analysis of the firm yield of the Central 
Valley Project.
    But what has happened over the course of the last 25 years 
is that the firm yield has been eaten away and eaten away and 
eaten away by different regulations. So, today, the Bureau of 
Reclamation not only cannot deliver us any water, when Mr. 
Murillo says that the exchange contractors are going to get 
their full contractual volume, it is not going to come from the 
source anticipated. That full contractual volume is going to 
have to come from releases out of Millerton Lake, on Friant 
Dam. And that, prior to 2014, was never done in the history of 
this project.
    Dr. Gosar. Now, pointing to the screen, a chart is going to 
come up. The Delta outflow from one period in 2015 to the same 
period this year. Can you describe the significance of this 
chart? Nothing coming up?
    [Laughter.]
    Mr. Birmingham. Well, if it was the chart that was shown at 
the beginning of the hearing----
    Dr. Gosar. Yes, outflows.
    Mr. Birmingham. What it depicts is the volume of outflow in 
2015 compared to the volume of outflow in 2016. And what that 
shows is Mr. Murillo is absolutely correct: 2015 was a dry 
year, and exports were limited for much of the year because of 
water quality constraints under Water Right Decision 1641; 2016 
is a wet year, at least it started out as a wet year.
    So, we have increased Delta outflow, but yet we have 
exported less water than we did last year, in a dry year. Our 
experience in California is when the water is available you 
have to take the opportunity to capture it. We are doing 
exactly the reverse of that.
    From December 1, 2012 through the end of February 2013, the 
projects lost 815,000 acre-feet at a time when we had hundreds 
of thousands of acre-feet of water flowing out of the Delta. 
Then it turned dry. If 2016 turns dry, then we will have lost 
maybe the only opportunity we had to capture some of the water 
flowing into the Delta.
    Dr. Gosar. I thank you, Mr. Birmingham, and yield back.
    Dr. Fleming. The gentleman yields back. Mr. Costa is 
recognized.
    Mr. Costa. Thank you very much, Mr. Chairman. I want to get 
some perspective here.
    Mr. Murillo, would you consider the east side of the San 
Joaquin Valley, the Friant water users unit, a junior water 
rights holder?
    Mr. Murillo. What was that question, again?
    Mr. Costa. The Friant water users, would you consider them 
junior rights water holders, as was described?
    Mr. Murillo. For Friant?
    Mr. Costa. Right.
    Mr. Murillo. [No response.]
    Mr. Costa. No, and it got a zero allocation this year, a 
zero allocation before. Let's get a little more perspective. 
Yes, the exchange contractors should maybe get 100 percent of 
their water this year, but that is 200,000 acres plus. And the 
exchange contractors up in the Sacramento Valley, by the way, 
will be getting the same amount of water. But they are under 
400,000 acres of productive land.
    We have 6 million acres in California that we farm, 600,000 
acres in the valley were fallow, fallow because they have no 
water. To compare one small area of the Valley getting, because 
they had the senior water rights, just like the city and county 
of San Francisco and the upper Sacramento Valley, and say 
somehow it is all fine, it is not. You have 600,000 acres that 
were fallow last year, unplanted, period.
    Now, let me also talk about another contradiction. I love 
the examples you gave in Marin, in Orange County, and Diamond 
Lake, which I helped the Metropolitan Water District with. And, 
guess what? A key component of using water tools to satisfy 
those regions involves storage, right? Yes. But when we talk 
about storage in the Valley, ``Oh, no, we don't think we have 
to have storage. We don't think you ought to raise the gates at 
Exchequer or Lake McClure because you don't think we can use 
the same tools that you use.'' I don't get it. I don't get it. 
We ought to be fair and equitable for every region in 
California when we talk about the water tools that are 
available to solve those regional water needs for those areas.
    Now, let me get to some questions here. Mr. Murillo, the 
amount of rainfall and snowpack that you have from the fall to 
the end of this water year, what allocation of water do you 
think will be made available to your contractors, both on the 
west side and the east, side, given the current status?
    Mr. Murillo. Probably, right now, we are looking at initial 
allocations. You know, it is going to be close to zero and----
    Mr. Costa. Zero, OK. Is it your opinion that the Central 
Valley Project will ever meet its contractual obligations to 
the junior contractors--it is the term we are using now--under 
the current regulatory structure?
    Mr. Murillo. Yes.
    Mr. Costa. You do?
    Mr. Murillo. If you are talking for the long term, yes. If 
you are talking this year, if you are talking whether we are 
going to meet that allocation----
    Mr. Costa. Is it your opinion that the co-equal goals of 
providing a more reliable water supply, and it appears it is 
being operated primarily for the purpose of the species 
recovery that, in fact, we can ever provide our commitments to 
the contractors with the current system?
    Mr. Murillo. I believe in the future we will provide 
allocations to the junior----
    Mr. Costa. Yes, but we have a historic delivery of 75 
percent. Do you think you could do that with the existing 
system?
    Mr. Murillo. I don't know.
    Mr. Costa. I think not. Let's be candid here. It is very 
difficult.
    What improvements do you think need to be made in order to 
meet those co-equal goals?
    Mr. Murillo. Like I said, in order for us to be able to 
improve the allocations to the junior right holders, we are 
impacted by the drought. We are going to have to have some wet 
years. We have flexible----
    Mr. Costa. No, but we need to fix a broken water system, 
don't you think?
    Mr. Murillo. No, the broken water system--what we are 
doing, we have WaterSMART programs for conservation----
    Mr. Costa. No, I know. But in the bigger picture, Mr. 
Murillo--you and I have worked on this for many years. If you 
do not use other water tools in the water toolbox--raising San 
Luis, raising Shasta, building----
    Mr. Murillo. Storage studies, yes.
    Mr. Costa. Right?
    Mr. Murillo. Yes, storage studies----
    Mr. Costa. For a growing state?
    Mr. Murillo. What is that?
    Mr. Costa. For a growing state, more demands on the water 
system?
    Mr. Murillo. Like I said, we are also doing storage. There 
are five storage studies, Congressman, that we are also working 
on, and we are going to complete----
    Mr. Costa. My time is expiring here, but I want to get to 
Mr. Pool, because it is good to see you, Richard, and I 
appreciate your efficacy on behalf of the salmon industry over 
the years.
    You have a lot of experience and expertise. Do you believe 
that we can recover the salmon fisheries in California, of 
which I guess 90 percent now are not native, with doing other 
improvement conditions by simply water flows alone? I mean just 
using one tool--i.e. the flow of water, is that going to be 
enough to fix the devastated salmon runs?
    Mr. Pool. If I understand your question, I don't think that 
is nearly enough. I think the biological opinions, the way they 
stand today, are about right. There are a number of science 
studies going on----
    Mr. Costa. How about the other impacts?
    Mr. Pool. The other impacts, we do not have nearly the 
things going. There are predation impacts, there are things 
that are needed in flows, in habitat, a number of things for 
the salmon, and I think we are not doing those things. That has 
been part of the problem. We can blame the past for not doing 
the things that the system needed for a fix. But it is never 
too late to start, and we have a lot of projects that can help 
that situation. And, I think we need a whole bunch of stressor 
actions.
    Mr. Costa. Thank you. Mr. Chairman, this gentleman has been 
a respected expert for 30 years in this effort, and I think he 
has a big-picture view on all of the factors that are 
contributing to the decline in the fisheries. But we do not 
talk about those for reasons.
    I thank you, Mr. Pool, for your comments.
    Dr. Fleming. OK. Mr. McClintock.
    Mr. McClintock. Our sound system works about as well as our 
water system, I guess.
    [Laughter.]
    Mr. McClintock. Mr. Birmingham, you were about to make a 
statement regarding the relationship of the biological opinions 
on smelt to water pumping and were cut off. I would be 
interested to hear your answer.
    Mr. Birmingham. Mr. McClintock, thank you. I am not sure 
specifically what you were referring to. If it was Mr. 
Huffman's----
    Mr. McClintock. Yes. That is specifically what I was 
referring to.
    Mr. Birmingham. On July 16, 2015, Mr. Huffman, on the Floor 
of the House in the debate on H.R. 2898, said the following, 
and I will quote, ``Facts are stubborn things.''
    Mr. McClintock. No, I remember that. I was incredulous by 
his statement. You were in the process of correcting that.
    Mr. Birmingham. Well, thank you, Mr. McClintock. I went 
back this morning and I looked. I was looking at the change 
orders for 2015, the 2-year period that he was referring to. I 
very quickly found a change order from the Bureau of 
Reclamation saying, ``Reduce pumping at the Jones pumping plant 
to 850 cubic feet per second,'' the bare minimum. And the 
reason for it was ``Delta smelt concerns.''
    So, in fact, over that 2-year period, that 3-inch fish did 
cost the projects water. And that was the point I was trying to 
make.
    Mr. McClintock. Thank you. Last year the House----
    Mr. Huffman. Will the gentleman yield for a correction?
    Mr. McClintock. No, Mr. Huffman, I respected your time, I 
would ask you to respect mine.
    Mr. Huffman. You don't have to yield.
    Mr. McClintock. Mr. Birmingham, last year the House adopted 
the Valadao bill. It is sitting in the Senate right now. Had 
that been enacted into law, what impact would it have made on 
our current situation?
    Mr. Birmingham. If that bill had been enacted, of the 
500,000 acre-feet of water that was lost, compared to Water 
Right Decision 1641, we would have been able to capture at 
least 200,000 acre-feet of that water.
    Mr. McClintock. And how many residential customers would 
that serve?
    Mr. Birmingham. It would serve 400,000 households of 4 
people.
    Mr. McClintock. So about 1\1/2\ to 2 million residential 
users for a year.
    Mr. Birmingham. Yes.
    Mr. McClintock. And that is just what would have been saved 
if that bill was currently law.
    Mr. Birmingham. Yes.
    Mr. McClintock. I think the Ranking Member was right, that 
the current releases from Folsom are due to flood control 
regulations that are badly outdated. Yet, the water, once that 
has been released for flood control purposes out of Folsom, 
could have been pumped south to be stored in reservoirs 
downstream. Could it not have?
    Mr. Birmingham. Yes. In fact, historically, when water was 
released from Folsom----
    Mr. McClintock. But we cannot do that because of 
environmental regulations that are not only outdated, but, in 
many cases, have been found to be either defective or actually 
fraudulent.
    Mr. Birmingham. Yes. And if I can elaborate----
    Mr. McClintock. Perhaps we ought to be revisiting both of 
those sets of regulations, the outdated flood control 
regulations, as well as the outdated environmental regulations 
that have prevented hundreds of thousands of acre-feet that are 
being released out of dams like Folsom for flood control, so 
that they can be stored downstream for beneficial human use in 
dry periods.
    Mr. Birmingham. The simple answer to that question is, 
absolutely, yes.
    Mr. McClintock. Mr. Murillo, how can we expect residents to 
continue their Herculean efforts to conserve water, to stretch 
every drop, to watch their lawns turn brown, to watch their 
prized gardens wither and die, when they see the government 
releasing tens, and in some cases hundreds, of thousands of 
acre-feet of water to adjust river temperatures for fish in the 
middle of the worst drought in the recorded history of 
California?
    I am very concerned that the lesson that this government is 
teaching is that it does not care about the residential needs 
of users. And, therefore, I wonder why those residents should 
care to continue these enormous efforts that they are making to 
conserve when they watch this enormous, outrageous amount of 
wasted water coming out of our dams. Do you worry about that?
    Mr. Murillo. Well, when we operate the CVP, we have to not 
only take a look at providing the project yield, but we also 
have to comply with the law. And, the law says that we have to 
protect a certain species. It is the Delta smelt and the 
winter-run salmon; and we are doing that.
    I know that people are disappointed with the operations, 
but that is the job we have.
    Mr. McClintock. Mr. Birmingham was right. These laws were 
put in place to protect the environment, like the Delta smelt. 
How is the environment doing after all of these years of 
experience with these laws and regulations?
    Mr. Murillo. Well, I know that the abundance of the Delta 
smelt is pretty low right now.
    Mr. McClintock. So, we have not only decimated our economy, 
we have not only done enormous harm to millions of people, but 
we have not accomplished the stated purpose of these laws, 
which was to improve the environment. In fact, I would say we 
have actually harmed the environment. They want to tear down 
the Iron Gate Dam on the Klamath, which would take with it the 
Iron Gate fish hatchery that produces 5 million salmon smolts 
every year. This is just lunacy.
    Dr. Fleming. OK. The gentleman yields. Mr. Lowenthal is 
recognized.
    Dr. Lowenthal. Thank you, Mr. Chair. I want to thank all 
the witnesses for coming today. After listening to this 
discussion, I want to preface my questions with kind of how I 
am framing what we are talking about.
    We have many important water decisions to be making in 
California. Much of our state is hurting, as we have heard 
today. It is frustrating. We have heard that from our 
witnesses. But, we should also keep in mind that the dominant 
factor in our decreased water availability and decreased 
pumping out of the Delta is the drought. And the drought was 
not caused by the Delta smelt.
    The truth is that the effects of the Endangered Species Act 
on our water supply are only around the edges of our state's 
water balance. Let's really be honest. We have a much bigger 
and harder problem to address to get our house in order and to 
create a long-term solution for our water system that our 
future and our entire state depends upon.
    These are problems that are going to take a great deal of 
courage, and to find solutions it is going to require 
compromises by all sides. Much of that solution--and I am going 
to say that again--much of that solution lies in investing in 
water infrastructure, big and small, that will allow us to use 
less water, use the same water over and over again, and capture 
and save more water for later use.
    I am--just an example, I am proud to represent two world-
class water districts that have been leading the way on 
building sustainable water systems using less water and 
reducing their dependence on imported water. For example, the 
Orange County Water District, different than the Municipal 
Water District, in partnership with the Orange County 
Sanitation District, has built the world's largest potable 
water reuse facility, the world's largest.
    That system now produces 100 million gallons per day of 
local drought-proof water supply, which is enough water for 
850,000 people. Other nations throughout the world come to 
Orange County to understand this engineering feat, which was 
created by the Orange County Water District, in partnership 
with the Sanitation District.
    Just to the north, the city of Long Beach, its mayor, 
Robert Garcia, is working to increase our storm water capture 
from the San Gabriel River, and to complete a recycled water 
purification plan that will reduce imported water demand by 1.9 
billion gallons per year. Thousands of drought-tolerant 
landscapes have been installed in homes and businesses in the 
Long Beach and Orange County area, replacing 2.3 million square 
feet of turf grass. And Long Beach is also planning to use 
recycled water for cooling of all of its power plants.
    These are the kinds of investments that have helped to 
protect my district in Southern California from drought and 
import dependence, and have set an internationally-recognized 
standard for sustainable water use. But those infrastructure 
investments took a lot of time, planning, and lots of capital. 
Let's be clear about that.
    We should be encouraging all of our water districts to make 
these kinds of long-term investments, because unfortunately, if 
we are really going to face this, we will have an even bigger 
problem in today's drought that we all must face, and that is 
climate change. And, we have not discussed that at all. We have 
just summarily dismissed that this is just the beginning.
    The greatest driver behind long-term, as I will say again, 
is precipitation changes, climate change. And we need to 
acknowledge that our universities are telling us--for example, 
recently Stanford University released a study that by 2030 we 
can expect nearly all dry years to be abnormally warm. In other 
words, many more droughts are coming, like the one like we have 
now, in the near future because of climate change.
    This brings me to a question now for Mr. Murillo to focus 
on where we are going in the future.
    What is the Bureau of Reclamation doing to prepare for the 
increased frequency of drought conditions that our universities 
are predicting? That is where we are going. I want to know what 
you are doing about what we are hearing from our universities.
    Mr. Murillo. Thank you for a good question, Congressman. 
Just a quick response. You know we are doing storage studies. 
There are five storage studies we are doing. There is the 
WaterSMART program, which is conservation. Then we also have 
these climate change pilot programs that look at our 
operations.
    Dr. Lowenthal. Thank you. I would continue this in 
questions, but I yield back.
    Dr. Fleming. The gentleman yields. Mr. LaMalfa.
    Mr. LaMalfa. Thank you, Mr. Chairman.
    First of all, I would like to enter into the record a 
written testimony from a long-time constituent, Ken LaGrande, 
who is a rice farmer from Northern California. What he 
underlines is that the prospective Federal agencies' role in 
the refusal to declare an end to the drought means a loss of 
control, power, authority, value, or relevance. And in light of 
the situation at Folsom Lake, you could argue that perhaps the 
drought is over for that entity, in light of over-doubling of 
releases because of flood control needs, which leads to many 
other questions.
    So, I would like to enter that in the record, please.
    [No response.]
    Dr. Fleming. Without objection, so ordered.
    [The letter entered by Mr. LaMalfa for the record follows:]
   Prepared Statement of Mr. Ken LaGrande, Rice Farmer from Northern 
                               California

    As a fifth generation farmer and landowner in the Sacramento 
Valley, I have lived the ups and downs of our region's agricultural 
economy--ups and downs that are driven as often as not by issues of 
water supply. Unfortunately, negative fluctuations in our regional 
water supply are increasingly being driven by forces other than Mother 
Nature.
    With that said, I am strongly encouraged by Mother Nature and her 
recent delivery of El Nino. Its ongoing performance has already brought 
us an above average snow pack, rising reservoir levels across the 
state, and noticeable improvements in groundwater measurement.
    The fact that the U.S. Bureau of Reclamation is currently dumping 
water from Folsom Reservoir for flood control purposes should be 
another encouraging sign of ample water supply. I fear, however, that 
it is yet another example of the so-called ``regulatory'' drought.
    And I fear that it is the harbinger of things to come--a refusal to 
declare an end to the drought by those for whom an end to the drought 
means a loss of control, power, authority, value or relevance.
    Constituents are watching as these high flood flows surge down the 
American River at the command of the Federal Government, and at the 
same time they are staring at their notices from the State Water 
Resources Control Board and the Governor's Office as to the continuing 
severity of our drought in California. This is not sitting well out 
with many residents of Sacramento, not to mention the Sacramento 
Valley.
    To be certain, as a slap in the face to every average resident of 
Sacramento who is doing their part to conserve water, this Folsom 
release situation is critical. But, it is also critical because, as you 
know, the California water storage system is operated on an integrated 
basis; water supply in Shasta, Oroville, Folsom and elsewhere is all 
taken into account when needs and uses are allocated. The point? Less 
water in Folsom means more demand on water in other reservoirs--namely 
Shasta and Oroville. Regulatory drought.
    The good news? Clearly, the inflows at Shasta appear to be on track 
to meet the contractual thresholds for full 100% deliveries to 
Sacramento River Settlement Contractors. For that, we can all be 
thankful.
    We are already hearing cries, however, from the litigious 
environmental groups such as the Ms. Kate Poole at the Natural 
Resources Defense Council that the drought is not over and that the 
``fish flows'' must come first. This must be dismissed categorically.
    It will not be easy, however. The State Water Resources Control 
Board, led by Chairwoman Felicia Marcus and Executive Director Tom 
Howard, is by all appearances extremely reluctant to acknowledge that 
the drought is over or that any of their draconian emergency powers may 
be relaxing anytime soon.
    A concerted effort by and between these litigious environmental 
groups, the SWRCB and even several Federal resource agencies appears to 
be under way to minimize agricultural diversions and certainty of water 
supply in California. The mantra seems to be: if Mother Nature will not 
cooperate, we will.
    The state of things today in the Sacramento Valley? Mother Nature 
has delivered on her promise and has ended the recent drought. 
Reservoirs are filling and snow is continuing to fall. But there are 
those who tasted the control of the supply of water during the recent 
drought--and found it to their liking. They are giving clear evidence--
to anyone who is paying attention--that they will fight tooth and nail 
to maintain the fiction that the drought is continuing, thereby 
preserving their mouthful of power. And control.
    I am testifying today that in my view, the very foundations of the 
entire California water system are under serious attack. And not by 
Mother Nature. But from within. It is incumbent upon this Congress to 
be vigilant in protecting the rights and properties of the United 
States and of one of the largest economies, agricultural and otherwise, 
within this great Nation.
    May God continue to bless us with rainfall. And may God continue to 
bless the United States of America.

    Thank you.

                                 ______
                                 

    Mr. LaMalfa. Thank you. I will start out with Mr. Bettner 
from the neighborhood here.
    In your written testimony, you suggest it seems that the 
NOAA Fisheries are demanding that Reclamation operate the CVP 
in a way that is going to result in shortages to water users, 
even when the drought situation, it could be argued, is easing 
on that system. Can you explain more about these concerns? And, 
if you can, would you discuss the role you see the state 
playing in dictating how the CVP is operating on that 
Sacramento River system?
    Mr. Bettner. Sure. A lot has been discussed about Delta 
operations and Delta smelt. But, things downstream like the 
Delta affect operations upstream and upstream reservoirs.
    For us, an endangered winter-run is currently driving a 
significant portion of the upstream operations of the Central 
Valley Project. So, that affects Lake Shasta, which in turn 
affects Lake Oroville, which also affects Folsom Reservoir. We 
are seeing that just the number, and how the fishery agencies 
are calculating the number of fish surviving, while it is 
challenging to monitor on the river, we just think a better job 
needs to be done, potentially----
    Mr. LaMalfa. Let me jump in. You alluded a while ago that 
there is a portion of the season during the high flows where 
they are not even monitoring, but they are modeling off of 
that, correct?
    Mr. Bettner. No, what actually happens is during high-flow 
events, and we have this with our fish screen, as well, you 
cannot operate the traps because of debris, safety issues. So, 
what happens is, you use data before and after those high flow 
events to average in what the number of fish would have moved 
through the system were.
    We know that salmon moved during high flow and turbid 
events, and what happens is that those fish are not caught or 
counted.
    Mr. LaMalfa. Well, they have to basically model or guess at 
what is happening during the high events----
    Mr. Bettner. Yes. And, there is a current under-projection 
of the number of fish moving, which says there is an extremely 
low count, artificial low count. This is evidence that is fact 
with the late fall run. The late fall run currently has only a 
3 percent annual survival rate. If you look at the same data, 
the same calculations, the same tools that they calculate how 
the late fall run are surviving, from 2002 to 2012, the average 
survival is 3 percent.
    So, that number alone would say that run should not be 
sustainable. That run should have died and not come back with 
those numbers that are that low. And, that has been the same 
concern expressed on winter-run of the 3 and 5 percent.
    So we know, based on the late fall run, the data is not 
right. The calculations cannot be right to have numbers that 
low. And that is the same number and the same method that is 
being calculated for winter-run. And that is driving the 
operation of Lake Shasta, which drives our water supply, which 
drives how the Bureau ultimately operates the rest of the 
system.
    Mr. LaMalfa. Do you believe the CVP is being solely 
operated for the benefit of the winter-run only?
    Mr. Bettner. The upstream reservoirs, yes. And that 
ultimately does affect the Delta, as well.
    We believe the fishery agencies are doing the best they can 
with the data they have, but they need better monitoring, like 
I said, additional monitoring. We have talked to the agencies 
about even potentially helping fund some of those activities, 
so we can get better data to make better decisions.
    Mr. LaMalfa. Speak to us a little bit about the regime of 
cold water being held behind in Shasta Dam where, right now, 
the operation did not allow releases of significant Ag. water, 
I believe, until May 1 last year. And there is discussion of, 
and talk about that, and seasonal----
    Mr. Bettner. Yes. Well, the last 2 years, there have been 
limited diversions in order to protect the cold water pool. 
This year, there is potentially even more.
    So, while we have water rights in our contract that say we 
may get X supply, right now we don't know what the Bureau is 
going to give us.
    Mr. LaMalfa. Talk about the planting season. My 
understanding is that May 1 is when the first water can be 
drawn. Now they are talking about mid-June. My understanding is 
farmers tend to plant in the spring, and they need water 
starting maybe in April or May. So, if we are putting off 
deliveries to mid-June or----
    Mr. Bettner. We don't know. I mean today I cannot tell you 
when we are going to get water, how much. We are currently----
    Mr. LaMalfa. You cannot tell your banker when you are going 
to get water, or----
    Mr. Bettner. We cannot tell our growers right now what we 
are going to----
    Mr. LaMalfa. Growers? Yes.
    Mr. Bettner. And we are a senior water holder. We are 
trying to do our own modeling, provide that. We work with the 
Bureau closely, but we have the State Board asserting its 
influence, as well. We are trying the best we can----
    Mr. LaMalfa. So, your growers are in there with their 
banker right now, trying to predict if they are going to get a 
crop loan this year. They cannot tell their banker if they are 
going to get a water supply on time or at all, or is it going 
to be in September, after they have already harvested.
    Mr. Bettner. That is correct, we do not know.
    Mr. LaMalfa. Thank you.
    Dr. Fleming. OK, the gentleman's time up. Mr. Denham is 
recognized.
    Mr. Denham. Thank you, Mr. Chairman. First of all, let me 
say on record that the Ranking Member and I work very closely 
together on a variety of different issues, especially as they 
pertain to California. But on this issue, the arrogance to 
trivialize such a critical issue that affects so many people in 
the state of California and around the country, I think is 
disrespectful to the people in Porterville.
    I mean, this Administration continues to talk about 
environmental and social justice. Yet, where is the social 
justice to large Hispanic communities in the Central Valley, 
like Porterville, that are now forced to use government showers 
that are brought in, or water that is now being trucked in? 
Where is the social justice of 34 percent unemployment going 
back up to 50 percent in large Hispanic areas like Mendota, or 
areas that Mr. Costa represents over in Los Banos?
    This is not an ideological battle. This is not an election-
season battle. This is a battle of basic necessities of life. 
This is a battle of whether or not they are going to have food, 
or whether we are going to truck it in from other countries. 
This is not an issue to be trivialized. On election season?
    Mr. Huffman. Will the gentleman yield?
    Mr. Denham. We have 2-year terms.
    Mr. Huffman. Will the gentleman----
    Mr. Denham. Every year is an election year. Every year is 
an election season. Every year we need to continue to bring up 
bills and amendments to address this important issue.
    On the environmental justice side, I plant trees, and those 
trees actually clean the carbon out of the air. If we are going 
to talk about climate change, shouldn't we be considering the 
trees that we plant? Shouldn't we actually be talking about the 
cleanest energy there is, of hydro? But yet in the climate 
change issue, the social environmental justice issue does not 
consider hydraulic energy.
    Mr. Huffman. Would the gentleman yield?
    Mr. Denham. I only have a couple minutes to ask a couple 
questions. I hope we will have a second round, because I know 
you have more, and so do I, but obviously, this is an issue 
that goes across party lines and should be addressed by 
Californians and Americans. It is a real social injustice, and 
a real environmental injustice. We cannot just talk about it or 
ship in supplies because we are afraid to address this on such 
a huge magnitude issue.
    One of the focuses of this hearing has been whether 
reducing the Delta pumps has been helpful to endangered 
species. I think that is debatable. I think we ought to 
continue to debate it, and we ought to continue to come up with 
sound science.
    But yet, 2 weeks ago, this subcommittee talked about non-
native striped bass predation, how big of an impact that has to 
the overall fish population. Here, on one hand, we are trying 
to address the threatened and endangered species, yet we have a 
doubling goal on non-native predator fish. So, the predator 
fish that are eating 98 percent--Mr. Pool talks about 97 
percent of the salmon that do not make it out to the ocean, be 
it 98 percent of them, by the Administration's own numbers, by 
NOAA's numbers, 98 percent of those get eaten by the predator 
fish that, under CVPIA, we are supposed to double.
    So, we are going to double the amount of fish that are 
eating the endangered species. It would seem like the 
Administration's goal is to kill the endangered species that we 
are spending millions and millions of dollars and millions of 
acre-feet of water, affecting all of California at the time of 
a fifth-year drought.
    I would ask specifically, controlling predation seems like 
the easiest of fixes, and certainly, if you want to save the 
endangered species, which certainly seems to be an easy fix to 
fish or address the predator fish population, I would ask each 
of you for a very, very brief answer on whether you think 
predation is something that can help to solve this overall, 
starting with Mr. Barbre.
    Mr. Barbre. I cannot find much to disagree with your 
comment. Obviously, these predators are killing what we are 
supposed to be protecting. It is a two-edged sword. So, I 
concur with you.
    Mr. Denham. Thank you. Mr. Bettner?
    Mr. Bettner. I would agree, as well. I mean we have seen 
evidence of predation moving further up into the Sacramento 
River system, and it is being a significant issue, especially 
with winter-run that are holding upstream in the river longer. 
The longer they sit upstream before they move out, they are 
going to get predated on. So, I totally agree.
    Mr. Denham. Thank you. Mr. Pool?
    Mr. Pool. I would agree. Predation is a huge, huge problem. 
And it needs dealing with. We have developed 39 engineering 
projects that will deal with predation. There is massive 
predation in the Delta that can be taken care of with projects, 
and we cannot get those projects moving. So, I agree with you, 
we need to do the things that we have identified.
    Mr. Denham. Thank you. Mr. Murillo?
    Mr. Murillo. Yes, I would also agree that predation is one 
of the stressors for the endangered species.
    Mr. Denham. Thank you. Mr. Birmingham?
    Mr. Birmingham. There is unanimity here.
    Mr. Denham. Thank you. Well, it is nice that we can all 
agree on one thing. I actually have a bill that has just been 
introduced. I would love to have all of your support on it.
    If I could just follow up with one last question, I will 
make it brief, Mr. Chairman.
    Mr. Murillo, one of our Senators introduced a California 
drought bill. In regard to Senator Feinstein's bill that she 
just introduced----
    Dr. Fleming. Wait, Mr. Denham.
    Mr. Denham [continuing]. If enacted----
    Dr. Fleming. Mr. Denham, let's do this. We are going to 
have a brief round after this. So let's save that, because we 
need to go ahead and move on.
    So, Mr. Newhouse, I will recognize you, and then we will 
come back for a 2-minute round.
    Mr. Denham. Well, at this time I would be happy to yield 
back the time that I do not have left.
    [Laughter.]
    Dr. Fleming. OK. I thank you for that.
    Mr. Newhouse.
    Mr. Newhouse. Thank you, Mr. Chairman, and thank you for 
yielding, Mr. Denham. Let me just ask a couple of questions.
    I come from the Pacific Northwest, the state of Washington, 
where, fortunately or unfortunately, we are experiencing 
drought conditions, but certainly not to California's extent 
yet. But, we are watching with grave interest what is going on 
to our neighbors in the South.
    So, just to allow you to expand on a couple of these 
things, Mr. Barbre, in your testimony you talk about the need 
to increase the surface water storage capacity to mitigate 
future water crises. Could you expand a little bit on how H.R. 
2898 could help address these issues, while also working within 
the current biological opinions that we are discussing here 
today?
    Mr. Barbre. I think certainly expanding water storage is a 
critical part of the future of this. We have enough studies 
where we know when the fish are running and when they need the 
cold water. If we have the water in storage, we can let it go. 
This shows man and nature can co-exist.
    You hear a lot of talk about climate change. If climate 
change truly is happening, we are going to have less of a 
snowpack. It means we are going to have significantly more 
runoff. So, we need to be able to capture that. I go back to 
the Colorado River System. We capture every drop in that 
watershed. We capture every drop, and it saved us. We have the 
ability to move a drop of water from the Oregon-California 
border down to the Mexican-California border, we just have the 
unwillingness, it seems, to fix the Delta. And that is the main 
hub. That is what is critically important at this point.
    Mr. Newhouse. Thank you.
    Mr. Birmingham, I think, from what I can tell, part of the 
problem that California is facing is due to a failure to 
continue to improve water storage and delivery systems. I see 
in our state that the runoff that you are talking about--the 
Yakima River is high, we are losing our valuable snowpack 
early. So, the summer could be another long, dry spell for us.
    With the state of California population scheduled or 
predicted to increase in the next 30-some years, how will 
people in California, especially farmers, be impacted without 
some kind of a forward-looking water management policy?
    Mr. Birmingham. Well, the state of California absolutely 
has to have a forward-looking water policy. Mr. Huffman and Mr. 
Lowenthal made some comments, and some of those comments are 
spot on about the need to have a comprehensive water policy.
    But, as an example, Mr. Lowenthal talked about the 
Herculean efforts made by one agency to save 1.9 billion 
gallons of water. Sounds like a lot of water. That is 5,830 
acre-feet. Over the next 2 days, the Bureau of Reclamation is 
going to release out of Folsom Reservoir nearly 30,000 acre-
feet. That water is going to be gone forever.
    So, we have to do the things that Mr. Lowenthal was talking 
about, we have to build new storage, we have to figure out 
smarter ways to move water from where it exists to where the 
demand exists, we have to conserve, we have to use de-
salinization, and we have to do all of those things. But we 
also need to have smart policy that governs the operation of 
these projects.
    And pardon me for saying this, but, from my perspective, a 
policy that does not do anything to benefit fish or apparently 
does not do anything to benefit fish, given the decline of all 
of these species, when it has the type of impacts that Mr. 
McClintock was talking about, does not represent sound policy. 
We want to protect the fish, but it needs to be done in a smart 
manner that allows us to deliver water to people.
    Mr. Newhouse. Let me follow up with that, if I could. How 
would you respond to those that argue that the current level of 
water diversions are necessary for the protection of the Delta 
smelt species?
    Mr. Birmingham. We have talked a lot about the amount of 
water that is lost. And I said 500,000 acre-feet over 2 months 
compares to operations under D-1641, the Water Right Decision 
in the state of California, that describes how much water has 
to go out of the Delta to protect fish. It is 500,000 acre-feet 
of water. I suspect, and you can ask the experts, but if they 
were to have pumped that 500,000 acre-feet, it probably would 
not have had any effect on the long-term abundance of the Delta 
smelt.
    And, there are reports--for example, the National Academies 
of Science did an analysis that described some of these 
relationships, the rates of pumping at the Delta pumping plants 
to the survival of salmon as being weak. They said flow is very 
important, but pumping apparently has no effect on salmon 
abundance moving out of the San Joaquin River. That is an 
objective analysis, and yet we continue to implement policies 
that severely limit our ability to deliver water to people, 
both farmers and urban areas.
    Mr. Newhouse. I appreciate that answer. I see my time has 
expired, so I yield back, Mr. Chairman, thank you.
    Dr. Fleming. I thank the gentleman. Well, panel, it seems 
that we are so close to a solution here today that Members 
would like another round of questions. We are going to limit it 
to 2 minutes and just hold a queue. For instance, I am not 
going to ask any further questions. I know Mr. Huffman wants to 
ask further questions, so we will keep a queue for Members who 
do want in.
    The Chair now recognizes Mr. Huffman for 2 minutes.
    Mr. Huffman. Thank you, Mr. Chair. Not enough time to cover 
all the ground I would like to, but a couple of important 
points need to be made.
    Mr. Birmingham, we have gone back and forth a little, but 
you do not have to take my word for it from last summer on the 
Floor of the House. Right there in that chair, we had Mike 
Conner and other folks saying the exact same thing. At the time 
those statements were made, they were true and correct. Citing 
data that was only released by the Bureau this week is not much 
of a gotcha moment, and it is not very productive, quite 
frankly. So, I think we need to be more careful, as I said 
before, on how we assert and use these facts in a discussion of 
a subject like this.
    Jeff Denham, you are my friend, and we do work well 
together on a bunch of issues. But, I want to correct the 
notion apparently that I have somehow trivialized the suffering 
in places like Porterville and other parts of the Valley. You 
will never hear me trivialize that suffering. What I will do is 
ask that we tell the whole story.
    Porterville, East Porterville, is an environmental justice 
tragedy and a disgrace. It is an area that, even in wet years, 
has to drink nitrate-laden, toxic water for a community that 
deserves better. It is a community that needs to have clean 
water that, unfortunately, is not being shared with the hard 
workers who helped build the Ag. economy. It is flowing right 
by them, in many cases, in canals. But they are forced to drink 
nitrate-laden water from wells. When the wells dry up, water 
had to be trucked in----
    Mr. Denham. Will the gentleman yield?
    Mr. Huffman. I would work with you. I would be delighted to 
work with you on a solution to that environmental justice 
problem. And the same goes for communities like Mendota and 
other places that are suffering not just this year, but every 
year, from chronic unemployment. I will never trivialize those 
issues.
    But I will ask that we tell the whole story, because even 
just a few years ago, when water deliveries were much higher, 
when the Ag. economy was booming in the Valley, unemployment 
was 40 percent or greater in many parts of the Valley. So, 
let's be very clear. This is not trivializing, but there is a 
bigger context. And thankfully, Jim Costa talks about these 
communities each and every year, not just in critical drought 
years. But we need to be very careful with the context of this 
discussion.
    Mr. Denham. If the gentleman would be willing to support 
the predation issue--I mean you heard it from every one of 
these experts, that it is a big issue, and 2 weeks ago you 
heard that 98 percent of the endangered species are getting 
eaten by these predator fish. We would ask you to support that 
bill to make sure that the social injustice stops.
    Mr. Huffman. As I told you, I am happy to look at that 
pilot project.
    Dr. Fleming. All right. Mr. McClintock is recognized.
    Mr. McClintock. Thank you. Mr. Murillo, I want to follow up 
on a point that Mr. Costa had made. The El Nino is an 
unreliably wet weather cycle. We had hoped for much more than 
we now appear to be getting. It looks like it is fizzling. It 
is usually then followed by a La Nina, which is a reliable dry 
period.
    Is it possible that we are simply in a 1-year respite from 
a multi-year drought that has yet to unfold?
    Mr. Murillo. That is a possibility.
    Mr. McClintock. And if that occurs, are we going to be 
looking back on the release of these hundreds of thousands of 
acre-feet of water that could have been retained for productive 
human use very wistfully in a year or two?
    Mr. Murillo. Yes. I just want to make sure that people 
understand. We talk about these flood control releases out of 
Folsom. Some of that water, when we are not in excess 
conditions--and we are, at times, the last few weeks--some of 
that water is used to meet our exports on the south of Delta--
--
    Mr. McClintock. No, I understand that. But those exports 
then have been severely restricted because of the biological 
opinions that we have been discussing for the smelt.
    In addition to that, that is still water lost out of 
Folsom, which is necessary to serve the community of Roseville 
and other surrounding communities.
    Mr. Murillo. Well, this is a system we operate, Folsom is 
part of the system----
    Mr. McClintock. I want to get in one more question. Mr. 
Barbre, you mentioned the raising of Shasta Dam. Shasta was 
built to 600 feet of vertical elevation that stores about 4\1/
2\ million acre-feet. It was designed to be 800 feet of 
elevation. That 200-foot difference in vertical elevation of 
the dam means about 9 million additional acre-feet of water 
storage. Why aren't we doing that?
    Mr. Barbre. That is a good question. We should be doing 
that.
    Mr. McClintock. Is it the same environmental regulations 
that have so vastly inflated the cost of these projects that 
has made them cost-prohibitive?
    Mr. Barbre. Well, I think it is that, but also I believe 
there is a tribal issue that is asserted that some of their 
lands may be disturbed by the raising of Shasta.
    Mr. McClintock. Yes, but again, that is not an Act of God, 
these are all acts of government.
    Mr. Barbre. Exactly.
    Dr. Fleming. Mr. Costa.
    Mr. Costa. Thank you very much, Mr. Chairman. As Mr. Denham 
indicated, this is not only a social economic injustice issue 
that so many people in the San Joaquin Valley, 4 million 
people, have been impacted because their very existence is 
threatened by whether or not they will have a reliable water 
supply in the future, but it is also a national security issue. 
We need food in this country, and we produce food in this 
country.
    In California, we have 300 commodities that we grow. It is 
the Number One dairy state in the Nation, it is the Number One 
citrus state in the Nation. We produce half of the Nation's 
fruits and vegetables. And the list goes on and on. My time 
does not allow it, but these are some of the most nutritious, 
healthiest food products in the world.
    And I must make issue with some of my colleagues who like 
to villainize the people in the Valley, these 4 million people 
who are trying to put the food on America's dinner table and 
say, ``No, you really don't need water, you can just dry up and 
blow away.'' That is what it feels like, I can tell you. That 
is what it feels like over the years that we have debated and 
debated these issues, and tried to come together with 
bipartisan solutions to fix a broken water system.
    Mr. Birmingham, it is nice to hear the efforts of 
conservation that take place in Marin, in Orange, and in 
Imperial. Let's talk about the conservation that agriculture is 
doing. How much of Westlands Irrigation District is under drip 
or other high-tech water effective utilization?
    Mr. Birmingham. Well over 80 percent. The farmers in 
Westlands Water District are the most efficient farmers in the 
world.
    Mr. Costa. How much do you pay for water that you--when you 
can get water, you have not been able to get it for 2 years.
    Mr. Birmingham. Next year we are hopeful to be able to 
deliver water for approximately $900 an acre-foot.
    Mr. Costa. And normally it would cost $130 an acre-foot?
    Mr. Birmingham. Yes, sir.
    Mr. Costa. And I think that people need to understand that, 
because of the cost of the water--every efficiency is being 
used, but when you only irrigate the roots, you do not recharge 
the groundwater, and there is a double-edged sword. We need to 
take that into account, as well.
    Dr. Fleming. OK, the gentleman yields. Mr. LaMalfa.
    Mr. LaMalfa. Thank you, Mr. Chairman.
    Mr. Barbre, there was a little back-and-forth a while ago, 
talking about 1977, a pipeline was run from across the Richmond 
Bridge to help out Marin County with water supply that belonged 
to MWD during water trades, right? Was there also something 
that happened in 2014?
    Mr. Barbre. No, in 1977, that was a line that the Marin 
folks had to construct themselves. It was just temporary, but 
they ended up moving Metropolitan Water that we had turned back 
to the rest of the state.
    Mr. LaMalfa. MWD water was able to be used for that?
    Mr. Barbre. Yes.
    Mr. LaMalfa. OK.
    Mr. Barbre. And from that point forward, that is when we 
made the $14 billion in investments. We had to diversify our 
portfolio.
    Mr. LaMalfa. Certainly. OK. I am short on time.
    So, since then, Marin has gone on to build new storage and 
take other measures importing water. They built new storage 
there to help their situation. OK. Very good.
    Now, we talk about regulatory drought. You mentioned a 
while ago you have $75 million worth of costs just to study and 
permit a de-sal plant in your neighborhood?
    Mr. Barbre. Yes.
    Mr. LaMalfa. Amazing. Mr. Bettner, when we talk about the 
regulatory drought, which means not just on the flows, but 
also, evidently, leading up to building something to help with 
the drought, one of the things you talked about were delays in 
environmental review are related to shifting environmental 
requirements. What does that mean, when we are talking about 
the projects in our neighborhood, as far as the years and years 
it has been studied and talked about, and here we are, ready to 
go--especially since the voters in California passed a bond to 
build storage----
    Mr. Bettner. Well, I think we are at a point, from a local 
perspective, to start moving this project, get the feasibility 
study done, and the work done for DWR----
    Mr. LaMalfa. What is the delay?
    Mr. Bettner. We are getting that worked out. I think our 
concern is there is no permit strategy. So, we are going to be 
ready to go build a project, and if we are stuck with having to 
go through state and Federal permits, there is not alignment, 
there is not any way to expedite those permitting, then we are 
going to have a project that is going to provide a lot of 
benefits for water supply in the environment, and----
    Mr. LaMalfa. How much water would have been saved during 
the drought years, had it already existed?
    Mr. Bettner. About a half-million acre-feet every year.
    Mr. LaMalfa. Half-a-million acre-feet during drought flows 
would already be there.
    Mr. Bettner. Yes.
    Mr. LaMalfa. Thank you. I yield back, sir.
    Dr. Fleming. OK. Mr. Denham.
    Mr. Denham. Thank you. Mr. Murillo, I just wanted to follow 
up. In regards to Senator Feinstein's bill that was recently 
introduced, if it were enacted, what operational changes would 
it make in this year, 2016?
    Mr. Murillo. It probably would not change our operations 
this year. We would continue to operate the way we are 
operating right now, because the bill basically says we still 
have to comply with the state and Federal law----
    Mr. Denham. So, none. As we discussed yesterday, there 
would be no changes in pumping, which means Mr. Costa's area is 
going to face the same thing that it has faced for the last 4 
years.
    Mr. Murillo. Yes, with respect to pumping that we are doing 
in the Delta, it would probably be the same.
    Mr. Denham. Thank you. For that reason, much, much more 
needs to be done.
    Mr. Pool, there is a very successful program in the lower 
Columbia River that pays people to catch pikeminnow, very 
similar to the striped bass that are eating our endangered and 
threatened species. Do you believe that Federal fish agencies 
and the California Fish and Wildlife should begin a similar 
program in California?
    Mr. Pool. I think we should take a look at it. Pikeminnow 
are a major, major predator. Unfortunately, they are a native 
fish. But we should take a look at that one, because it has 
been quite successful in the Columbia River.
    Mr. Denham. With striped bass being a non-native fish that 
is proving to eat 98 percent of our salmon population----
    Mr. Pool. No, I would like to talk to you about that. It is 
not eating 90 percent. We are losing 90 percent. But that is 
temperature problems in the last few years, not predation 
problems. Predation is very high.
    Mr. Denham. It is very high. We just had----
    Mr. Pool. I would like to talk to you----
    Mr. Denham [continuing]. NOAA here 2 weeks ago, and their 
numbers--not my numbers, not this committee's numbers, but the 
Obama administration, their numbers say that 98 percent of the 
fish that we are trying to save are getting eaten by these 
predator fish. So, it makes sense to me.
    By your numbers, you say how many? What percentage are 
getting killed or are not making it out to the ocean?
    Mr. Pool. Oh, 5 percent survival from the upper----
    Mr. Denham. OK, so 5 percent survival----
    Mr. Pool. From the upper river.
    Mr. Denham. If the 95 percent that are not making it are 
getting eaten by predator fish, this would seem like a very, 
very cost-effective way to try to save the fish that are being 
prioritized over the people in Mr. Costa's and other people's 
districts.
    Mr. Pool. We would like to interact----
    Mr. Denham. I yield back, thank you.
    Mr. Pool [continuing]. On predation more with you. There 
are some subtleties.
    Dr. Fleming. I have been hanging on the edge of this cliff, 
waiting for the final solution here. But, unfortunately, we 
have----
    Mr. Denham. Do you want to have a third round?
    [Laughter.]
    Mr. Costa. Did you get it?
    Dr. Fleming. I have a feeling that if we go a third round, 
we are not going to get to the final solution.
    I do want to thank our witnesses for their valuable 
testimony. Members of the subcommittee may have additional 
questions for witnesses. We would ask for you to respond to 
these in writing. The hearing record will be open for 10 
business days to receive these responses.

    Therefore, being no further business before us today, and 
without objection, the subcommittee stands adjourned.

    [Whereupon, at 12:07 p.m., the subcommittee was adjourned.]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
